APPENDIX

1a
__________
APPENDIX A
__________
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
__________
No. 18-1507
JOSEPH WILBORN,
Petitioner-Appellant,
v.
ALEX JONES, Acting Warden,
__________

Respondent-Appellee.

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 14 C 05469 — John Robert Blakey, Judge.
__________
ARGUED DECEMBER 2, 2019 — DECIDED JULY 6, 2020
__________
Before SYKES, Chief Judge, and BAUER and
EASTERBROOK, Circuit Judges.
BAUER, Circuit Judge. An Illinois jury convicted
Joseph Wilborn for the murder of a rival gang member
in Chicago. In opening statements, Wilborn’s defense
attorney told the jury it would hear from his
codefendant, Cedrick Jenkins, identifying him as the

2a
actual shooter. During the trial, Jenkins indicated his
testimony would no longer be favorable to Wilborn.
Defense counsel, with Wilborn’s approval, did not
call Jenkins to the stand. Wilborn filed for habeas
corpus relief, alleging ineffective assistance of counsel.
The district court denied his petition and he appealed.
We consider whether trial counsel performed
deficiently and caused cognizable prejudice when he
told the jury in opening statements that Wilborn’s
codefendant would testify but then declined to call
Jenkins as a witness. For the following reasons, we
affirm.
I. BACKGROUND

On July 28, 2004, Emmit Hill (“the victim”) followed
rival gang members Wilborn and Jenkins into a
gangway near 63rd Street between Wabash and
Michigan Avenues, in Chicago, Illinois. Witnesses
heard multiple gunshots and found the victim
murdered.
Police located and arrested Wilborn and Jenkins. A
jury found Wilborn guilty of first-degree murder and
he was sentenced to 30 years, plus 25 years for
personally discharging a firearm. Wilborn appealed
and the Illinois Appellate Court affirmed the
conviction. The Illinois Supreme Court granted and
then ultimately denied Wilborn’s petition for leave to
appeal.
Wilborn then filed a petition with the United States
District Court for the Northern District of Illinois. He
claimed that trial counsel’s promises during opening
arguments amounted to ineffective assistance of
counsel. Trial counsel indicated multiple times that
Jenkins would testify to shooting the victim. However,
as the trial progressed, Jenkins changed his proposed

3a
testimony and defense counsel determined Jenkins
would no longer be credible. Wilborn agreed with this
recommendation on the record.
II. DISCUSSION
We review the district court’s decision to deny a
habeas corpus petition for ineffective assistance of
counsel under the de novo standard. Taylor v. Bradley,
448 F.3d 942, 948 (7th Cir. 2006). The federal courts
as a whole engage in “doubly deferential” review of
ineffective assistance claims when § 2254(d) applies,
as it does here. See Knowles v. Mirzayance, 556 U.S.
Ill, 123 (2009). “By its terms § 2254(d) bars relitigation
of any claim ‘adjudicated on the merits’ in state court,
subject only to the exceptions in §§ 2254(d)(1) and (2).”
Harrington v. Richter, 562 U.S. 86, 98 (2011).
“An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a
State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted in
a decision that was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C.
§ 2254(d). In other words, Wilborn must show either
clearly established Supreme Court precedent or an
unreasonable application in the State court
proceeding.
“The Sixth Amendment recognizes the right to the
assistance of counsel because it envisions counsel’s
playing a role that is critical to the ability of the

4a
adversarial system to produce just results.” Strickland
v. Washington, 466 U.S. 668, 685 (1984). In order to
prevail in an ineffective assistance of counsel claim,
“defendant must show that counsel’s performance was
deficient” and “that the deficient performance
prejudiced the defense.” Id. at 687.
Wilborn is relying on § 2254(d)(1) as well as (d)(2).
The only Supreme Court decision Wilborn relies on is
Strickland, arguing that when counsel refers to
someone during opening statements, that person must
then be called. Yet this has not stopped Wilborn from
making a “contrary to” argument under § 2254(d)(1).
The problem is that this relies only on our Court,
particularly Hampton v. Leibach, 347 F.3d 219, 257
(7th Cir. 2003). Although we think highly of our own
decisions, we are not the Supreme Court. See also
Kernan v. Cuera, 138 S. Ct. 4 (2017) (summarily
reversing a court of appeals for relying on circuit
precedent).
Wilborn’s representation did not contain serious
errors amounting to deprivation of a fair trial. Indeed,
unforeseen situations may arise during trial. During
opening statements, counsel reasonably believed that
Jenkins would testify to shooting the victim,
exculpating Wilborn. While Jenkins originally
indicated his testimony would be favorable to Wilborn,
Jenkins later changed his story multiple times.
Counsel determined Jenkins’ testimony to be
unreliable and consulted with Wilborn. Wilborn
agreed on the record that it was best not to call
Jenkins.
Counsel’s failure to present Jenkins to the jury or
present testimonial evidence does not rise to the level
of prejudice under Strickland. Promising the jury it

5a
will hear testimony that Wilborn did not participate in
the crime does not necessarily create prejudice. The
record reflects that Jenkins’ testimony wavered
multiple times and could have been more of a
hindrance to Wilborn. Furthermore, counsel discussed
the issue with Wilborn and made a record of the issue
in open court, where Wilborn agreed with the decision.
Therefore, according to Strickland, Wilborn failed to
show counsel’s performance was deficient or how it
deprived him of a fair trial.
We next consider whether the State court’s decision
resulted from reasonably applied facts in light of the
evidence presented. Here, Wilborn fails the Strickland
requirements for demonstrating prejudice. He fails to
“present both the operative facts and the legal
principles that control the claim in a manner that
would sufficiently alert the state court to the issue.”
McGhee v. Watson, 900 F.3d 849, 854 (7th Cir. 2018).
The state appellate court concluded that Wilborn
could not demonstrate ineffective assistance of counsel
on the merits. Wilborn has not presented sufficient
facts or legal principles to show his counsel’s
performance fell below the objective standard of
reasonableness. We find the Illinois state court’s
application was reasonable.
III. CONCLUSION
For the foregoing reasons, we AFFIRM the denial of
Wilborn’s habeas corpus relief.

6a
__________
APPENDIX B
__________
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Joseph Wilborn, (R17937), )
)
Petitioner,
)
) Case No. 14 C 5469
v.
)
) Judge John Robert Blakey
Randy Pfister, Warden,
)
)
Respondent. )

MEMORANDUM OPINION AND ORDER
Petitioner Joseph Wilborn, 1 a prisoner at the
Pontiac Correctional Center, brings this pro se habeas
corpus petition pursuant to 28 U.S.C. § 2254,
challenging his 2006 first-degree murder conviction in
the Circuit Court of Cook County. Petitioner was
convicted of first-degree murder for the shooting death
of Emmit Hill. He was sentenced to 55 years of
imprisonment. For the following reasons, the Court
The state court record contains spellings of Petitioner’s
last name as both Wilborn and Wilbourn. Petitioner spells
his name as Wilborn in his habeas corpus petition, so the
Court adopts that spelling throughout this opinion.

1

7a
denies the petition and declines to issue a certificate of
appealability.
I.

Legal Standard

Federal review of state court decisions under § 2254
is limited. With respect to a state court’s
determination of an issue on the merits, habeas relief
can be granted only if the decision “was contrary to, or
involved an unreasonable application of, clearly
established Federal law,” or “was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d)(1)-(2); Harrington v. Richter, 562 U.S.
86, 100 (2011). This Court “the burden of rebutting the
presumption of correctness by clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1); see Coleman v.
Hardy, 690 F.3d 811, 815 (7th Cir. 2012).
State prisoners must give the state courts “one full
opportunity” to resolve any constitutional issues by
“invoking one complete round of the State’s
established appellate review process.” O’Sullivan v.
Boerckel, 526 U.S. 838, 845 (1999). If a petitioner
asserts a claim for relief that he did not present in the
first instance to the state courts, the claim is
procedurally defaulted and “federal courts may not
address those claims unless the petitioner
demonstrates cause and prejudice or a fundamental
miscarriage of justice if the claims are ignored.” Byers
v. Basinger, 610 F.3d 980, 985 (7th Cir. 2010).
II.

Background and Procedural History

This Court begins by summarizing the facts and
procedural posture from the state court record [22]
(attaching Exhibits A to O), including the Illinois
Appellate Court’s opinions on direct appeal, Illinois v.
Wilborn, No. 1-06-2088 (Ill. App. Ct. May 22, 2008)

8a
(Exhibit D [22-4]), and post-conviction review, Illinois
v. Wilborn, 962 N.E.2d 528 (Ill. App. Ct. 2012) (Exhibit
L [22-12]). This Court presumes that the state court’s
factual determinations are correct for the purposes of
habeas review, as Petitioner does not point to any clear
and convincing contrary evidence. 28 U.S.C.
§ 2254(e)(1); Brumfield v. Cain, 135 S. Ct. 2269, 2282
n.8 (2015) (citing 28 U.S.C. 2254(e)(1)).
The case arises out of the July 28, 2004 shooting
death of Emmit Hill near East 63rd Street and South
Michigan Avenue on Chicago’s Southside. [22-4], pp. 12. The evening’s events began in front of an apartment
building at 6253 South Michigan, which is located at
the intersection of 63rd and Michigan. Id. at 2. At least
nine men were present in the area that evening:
Petitioner, the victim (Emmit Hill), Cedrick Jenkins
(who would later be tried as Petitioner’s co-defendant),
an individual known as “Chub,” and Clarence Morgan,
David Parker, Keith Wright, Samuel (“Moochie”)
Richards, and Frederick Sanders. Id. at 2-3; Wilborn,
962 N.E.2d at 532.
The victim and David Parker were associated with
the Black Gangster Disciples. [22-4], p. 3. Petitioner,
Cedrick Jenkins, and Chub were members of a rival
gang, the Insane Gangster Disciples. Id. By way of
background, the Black Gangster Disciples initially
claimed the apartment building at 6253 South
Michigan as drug territory, and prevented the Insane
Gangster Disciples from selling drugs at that location.
Id. The Black Gangster Disciples later lost control of
the building when federal authorities arrested several
of that gang’s members. Following the arrests, the
Insane Gangster Disciples attempted to take over the
drug business in the building. Id. Two weeks before his

9a
murder, the victim confronted Petitioner, Jenkins, and
Chub regarding drugs sales at the building. Id.
Sometime between 11:00 and 11:30 p.m. on July 28,
2004, Petitioner, Jenkins, Chub, Clarence Morgan,
David Parker, and the victim were present outside the
building. Id. Morgan and Parker both testified at trial
that neither saw the victim with a gun. [22-4], pp. 2, 3.
Morgan and Parker saw Chub hand Jenkins a
sweatshirt, which seemed strange to them, given the
hot late July weather. Id. In response, the victim told
Chub that he “‘was [] bullshit.’” Wilborn, 962 N.E.2d at
532. Morgan took this to mean that the victim was
telling Chub that he was “‘up to no good . . . .’” Id.
Following the exchange, Petitioner and Jenkins
walked away from the building into a gangway. [22-4],
p. 2. The gangway, which is a small area between two
buildings, ran east/west connecting Michigan and
Wabash Avenues just north of 63rd Street. Wilborn,
962 N.E.2d at 532-33. 63rd Street runs east/west, and
Wabash and Michigan Avenues run north/south.
Wabash is a one street west of Michigan.
Morgan testified that he saw the victim follow
Petitioner and Jenkins into the gangway. [22-4], p. 2.
Morgan lost sight of the group, and about a minute
later, he heard five gunshots coming from the
gangway. Id. Parker testified that he also heard seven
gunshots and saw the gangway “‘lighting up with
sparks.’” Id. at 4.
Morgan, Parker, Keith Wright, and Moochie
Richards investigated the shooting, walking south on
Michigan to 63rd Street, west on 63rd to Wabash, and
then north to the gangway. Id. at 3-4. There, they
found the victim shot dead in the gangway by Wabash.
Id. The group did not see Petitioner, Jenkins, or

10a
anyone else on the scene. Id. They did not find a gun
at the scene or on the victim’s body. Id. Richards
searched the victim’s pockets for drugs. Id. at 4.
Sanders, who lived in the area, heard the gun shots
while driving in his car. Id. at 2. He testified that he
drove over to Wabash and saw Richards standing over
the victim’s body. Id. Sanders called the police. Id. He
did not see anyone in the area with a gun and did not
see Richards take a gun from the victim’s body. Id.
Sanders testified that he did not see Petitioner or
Jenkins in the area. Id.
Chicago Police Department Forensic Investigator
John Kaput testified that he walked the crime scene
the night of the murder and recovered five fired Wolf
brand 9-millimeter Luger cartridge casings and a 9millimeter fired bullet. Wilborn, 962 N.E.2d at 535. No
gun was found at the crime scene. Id. at 543. An
Assistant Cook County Medical Examiner testified
that she performed an autopsy on Hill’s body and
determined that he had seven bullet entrance wounds,
and five exit wounds; she recovered two bullets from
the body and found a third bullet in the victim’s
clothing. Id. at 535.
A responding Chicago Police Department detective
testified that he interviewed witnesses at the scene,
and, as a result of the on-scene investigation, police
began a search for Petitioner, Jenkins, and Chub. Id.
at 534. The police were unable to locate the three men
that night. Id.
Stacy Daniels, a friend of Petitioner’s for more than
four years, testified that two weeks after the shooting,
on August 12, 2014, Petitioner told Daniels that, “he
‘got into some problems,’ and that he was in ‘some
serious shit.’” Id. Daniels testified that Daniels and

11a
Petitioner then went to Daniels’ apartment, which
Daniels shared with Xavier Woolard. Id. Woolard and
his girlfriend, LaKeisha, 2 were at the apartment when
Daniels and Petitioner arrived, and Jenkins was also
there. Id.
Once at the apartment, Petitioner told Daniels
about the shooting. Daniels testified that Petitioner
explained that the victim had followed him into the
gangway, and was “‘fittin’ to do something to him.’” Id.
Petitioner “‘turned around busting,’” which Daniels
understood to mean shooting. Id. Petitioner then told
Daniels that he needed money to leave town. Id. He
said he might “‘hit a lick or something like that,’”
which Daniels understood to mean that he might
commit a robbery. Id.
Daniels and Woolard left the apartment to go to a
party, while Petitioner, Jenkins, and LaKeisha stayed
behind at the apartment. Id. Chicago police officers
arrested Woolard at the party for an unrelated battery
offense, and, following his arrest, Woolard told the
police that there were two men in his apartment
wanted on murder charges. Id. He gave consent for the
police to search the apartment. Id.
The police then conducted the search of Daniels and
Woolard’s apartment. Id. The search revealed firearms
and ammunition. Id. Petitioner, Jenkins, and
LaKeisha were present in the apartment during the
police search, as was Daniels, who had returned there
after Woolard was arrested at the party. Id. During
their search, the police found in Woolard’s bedroom a
The state appellate court opinion refers to the girlfriend
by her first name only. Petitioner identifies her as
“Laquisha Bondsby” in his habeas corpus petition. [1], p. 31.

2

12a
9-millimeter Glock brand handgun loaded with two
bullets, as well as an additional 28 rounds. Id. The
police also searched Petitioner, who had one Wolf
brand Luger bullet and four “hollow point” Luger
bullets in his pocket, and Jenkins, who had a 9millimeter High Point handgun loaded with seven
bullets. Id.
The Illinois State Police Crime Lab performed
forensic testing on the weapons and ammunition
seized during the police search, to compare them to the
cartridges and bullets recovered from the crime scene
and from the victim’s body. Consistent with that
testing, the parties stipulated that one of the five
cartridge casings recovered at the crime scene was
fired from the Glock handgun found in Woolard’s
bedroom. Id. at 535. They further stipulated that the
other four cartridge casings were all fired from the
same gun, but that neither the Glock nor the High
Point handgun recovered during the search had fired
those four cartridges. Id. The fired bullet recovered at
the scene was not fired from the High Point handgun,
but the forensic testing was inconclusive as to whether
the bullet was fired from the Glock handgun found in
Woolard’s bedroom. Id. The parties further stipulated
that forensic testing showed that the three bullets
recovered from the victim’s body via the autopsy were
fired from the same gun, but not from the Glock or
High Point handguns. Id. Additionally, testing
determined that the one fired bullet recovered by the
police at the crime scene and the three bullets
recovered during the autopsy were not fired from the
same gun. Id.
Although counsel suggested in his opening
statement that Cedrick Jenkins would testify for the

13a
defense, counsel ultimately elected not to present
Jenkins as a witness. Id.
The jury found Petitioner guilty of first-degree
murder, and the trial court sentenced him to 30 years,
plus 25 years for personally discharging a firearm.
Petitioner appealed, raising three claims. See
Exhibits A [22-1], C [22-3]. First, he argued that the
state committed prejudicial error in interpreting the
phrase “hit a lick” to mean that Petitioner intended to
commit a future robbery. Next, Petitioner claimed that
the state’s closing argument denied him a fair trial,
because the prosecutor told the jury that if he had
acted in self-defense he would have turned himself in
to the police. Finally, Petitioner argued that the trial
court erred in imposing a 25-year firearm
enhancement when the jury never actually
determined that he had personally discharged a
firearm.
The Appellate Court affirmed Petitioner’s
conviction and sentence. See Exhibit D [22-4]. Counsel
then filed a petition for leave to appeal (“PLA”), raising
just this last issue regarding the applicability of the
firearm enhancement, see Exhibit E [22-5]. Petitioner
then sought leave to file a pro se PLA raising the “hit
a lick” argument as well. See [22-7]. The Illinois
Supreme Court granted Petitioner the opportunity to
file his pro se PLA, see Exhibit F [22-6], but ultimately
denied the PLA, see Exhibit H [22-8].
Petitioner also filed a pro se post-conviction petition
claiming ineffective assistance of trial and appellate
counsel; his petition was rejected both initially and on
appeal, see Exhibits I [22-9], L [22-12]. Petitioner then
filed a PLA with the Illinois Supreme Court, and the

14a
Supreme Court denied the PLA on March 26, 2014.
Exhibit M [22-13].
Petitioner then filed the instant habeas corpus
petition [1] on July 16, 2014.
III. Petitioner’s Claims

In his habeas petition, Petitioner asserts seven
claims. In claim one, he alleges ineffective assistance
of trial counsel for: (a) presenting a self-defense theory
that was unsupported by the evidence; (b) promising
the jury eyewitness testimony, then changing his mind
mid-trial; (c) failing to call co-defendant Cedrick
Jenkins at trial; and (d) failing to call exonerating
witness Randell Walton. In claim two, he alleges that
the jury received conflicting instructions concerning
accountability. In claim three, he alleges that: (a) the
trial court erred in failing to strike biased jurors; and
(b) his appellate counsel was ineffective for failing to
raise the biased juror issue on appeal. In claim four, he
alleges that the prosecution made improper
arguments before the jury by suggesting Petitioner
was planning a robbery. In claim five, he alleges that
the prosecution improperly commented on Petitioner’s
pre- and post-arrest silence. In claim six, he alleges
that the trial court erred in imposing a 25-year
sentencing enhancement. And, in claim seven, he
alleges that the trial court erred in allowing the
introduction of hearsay. See [1], p. 9.
A.

Procedural Default - Claims 1(a), 1(d), 2,
3(a), 3(b), and 5

Respondent argues that claims 1(a), 1(d), 2, 3(a),
3(b) and 5 are procedurally defaulted. Claim 1(a)
alleges ineffective assistance of trial counsel for
raising an unsupported self-defense theory to the jury.
Petitioner argues that a self-defense theory was

15a
contradicted by the victim’s gunshot wounds identified
by the autopsy. [1], p. 10. The autopsy showed that the
victim had seven entrance and five exit gunshot
wounds. Id. The doctor who performed the autopsy
testified that four of entrance wounds were on the
victim’s back, which led her to conclude that the victim
was shot while lying down or bent over, or that he was
shot from behind. Id. Given this evidence, Petitioner
argues, his lawyer was ineffective for presenting a
flawed self-defense argument that the jury rejected
when finding him guilty. Claim 1(d) alleges ineffective
assistance of trial counsel for failing to call Randall
Walton as a witness at trial. Id. at 31. Petitioner
claims that he never confessed to Stacy Daniels, and
that Daniels’ testimony to the contrary was a lie.
Petitioner argues that Walton, who was present in the
apartment, could have rebutted Daniels’ testimony. In
claim 2, Petitioner alleges that the jury received
conflicting instructions regarding accountability
liability. Id. at 34. Although Petitioner’s trial was
severed from Jenkins’ trial, the jury was instructed
that it could hold Petitioner liable for Jenkins’ conduct.
In claim 3(a), Petitioner alleges that his trial attorney
was ineffective for failing to strike biased jurors, id. at
40. Relatedly, in claim 3(b), he argues that his
appellate counsel was ineffective for failing to raise
this biased juror issue on appeal. Id. at 42. Lastly, in
claim 5, Petitioner alleges that the prosecutor
improperly commented on Petitioner’s pre- and posttrial silence. Id. at 48.
Respondent is correct that claims 1(a), 1(d), 2, 3(a),
and 3(b) are procedurally defaulted because Petitioner
failed to present these claims in the state court
proceedings. In order to obtain federal habeas review,
a state prisoner must first submit his claim “through

16a
one full round of state-court review.” Johnson v.
Hulett, 574 F.3d 428, 431 (7th Cir. 2009) (citing Picard
v. Connor, 404 U.S. 270, 275-76 (1971)); see also 28
U.S.C. § 2254(b)(1). Petitioner must present the
operative facts and controlling law of the claim before
the state courts so that they have a meaningful
opportunity to consider the claim before it is raised in
federal court. Anderson v. Benik, 471 F.3d 811, 814
(7th Cir. 2006) (citations omitted). Petitioner must
also raise the claim through all levels of the Illinois
courts, including in a petition for leave to appeal (PLA)
before the Supreme Court of Illinois. Guest v. McCann,
474 F.3d 926, 930 (7th Cir. 2007) (citing O’Sullivan v.
Boerckel, 526 U.S. 838, 842-46 (1999)). As explained
above, these claims were not raised to the state courts
in the first instance, and the time for raising them in
the state courts has expired. As a result, claims 1(a),
1(d), 2, 3(a) and 3(b) are procedurally defaulted.
Furthermore, even though Petitioner did raise an
ineffective assistance claim in his state court appeal,
he failed to raise the underlying factual theories for
the claim that he asserts here. Although ineffective
assistance of counsel is a single claim, Pole v.
Randolph, 570 F.3d 922, 934 (7th Cir. 2009) (citing
Peoples v. United States, 403 F.3d 844, 848 (7th Cir.
2005)), Petitioner must raise the particular factual
basis for each aspect of the alleged ineffective
assistance of counsel to preserve the respective
argument. Pole, 570 F.3d at 935 (citing Stevens v.
McBride, 489 F.3d 883, 894 (7th Cir. 2007)). “A bare
mention of ineffective assistance of counsel is not
sufficient to avoid a procedural default; [Petitioner]
must have ‘identified the specific acts or omissions of
counsel that form the basis for [his] claim of ineffective
assistance.’” Johnson v. Hulett, 574 F.3d 428, 432 (7th

17a
Cir. 2009) (quoting Momient-El v. DeTella, 118 F.3d
535, 541 (7th Cir. 1997)). “Petitioner cannot argue one
theory [of ineffective assistance of counsel] to the state
courts and another theory, based on different facts, to
the federal court.” Johnson, 574 F.3d at 432 (citing
Everett v. Barnett, 162 F.3d 498, 502 (7th Cir. 1998)).
Petitioner did not present the factual basis for claims
1(a) or 1(d) to the Illinois courts, and those claims are
therefore defaulted.
Respondent is also correct that claim 5 is
procedurally defaulted because it was dismissed on an
adequate and independent state law ground. The
Illinois appellate court held that Petitioner waived
this issue on appeal because he failed to raise a proper
objection at trial, and failed to renew the issue in a
post-trial motion, as required by Illinois law. [22-4], p.
11. As a result, this claim is also procedurally
defaulted here, even though the appellate court
considered the merits in the alternative under a plain
error review. See Kaczmarek v. Rednour, 627 F.3d 586,
592-93 (7th Cir. 2010) (“when a state court refuses to
reach the merits of a petitioner’s federal claims
because they were not raised in accord with the state’s
procedural rules (i.e., because the petitioner failed to
contemporaneously object), that decision rests on
independent and adequate state procedural grounds”;
where the state court “reviews a federal constitutional
claim for plain error because of a state procedural bar
(here, the doctrine of waiver), that limited review does
not constitute a decision on the merits.”).
Certainly, a federal court in a § 2254 case can review
a procedurally defaulted claim upon showing: (1) that
there was cause for the default and prejudice; or
(2) that a fundamental miscarriage of justice would
result if the claim is not reviewed. Petitioner here,

18a
however, demonstrates neither. Cause is an “‘objective
factor, external to [Petitioner] that impeded his efforts
to raise the claim in an earlier proceeding.’”
Weddington v. Zatecky, 721 F.3d 456, 465 (7th Cir.
2013) (quoting Smith v. McKee, 596 F.3d 374, 382 (7th
Cir. 2010)). Examples of cause include: (1) interference
by officials making compliance impractical; (2) the
factual or legal basis was not reasonably available to
counsel; or, (3) ineffective assistance of counsel. Guest
v. McCann, 474 F.3d 926, 930 (7th Cir. 2007) (citing
McCleskey v. Zant, 499 U.S. 467 (1991)). Only the third
example is relevant here: Petitioner faults his counsel
at trial, on direct appeal, and in his post-conviction
proceedings for failing to properly preserve his
defaulted claims. For counsel’s ineffective assistance
to amount to “cause” excusing the default of an
underlying issue, however, the ineffective assistance of
counsel that resulted in the failure to preserve the
claim must itself be properly preserved in the state
courts. Edwards v. Carpenter, 529 U.S. 446, 453
(2000); Smith v. Gaetz, 565 F.3d 346, 352 (7th Cir.
2009). Petitioner failed to preserve such ineffective
assistance of counsel arguments in state court as well;
and therefore, Petitioner cannot demonstrate cause
and prejudice to excuse his procedural defaults.
This leaves Petitioner with only the fundamental
miscarriage of justice (actual innocence) gateway to
excuse his default. Proving actual innocence in this
context requires Petitioner to demonstrate that “‘in
light of the new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a
reasonable doubt.’” McQuiggins v. Perkins, 133 S. Ct.
1924, 1928 (2013) (quoting Schlup v. Delo, 513 U.S.
298, 329 (1995)). This is a “demanding” and “seldom
met” standard. McQuiggins, 133 S. Ct. at 1928 (citing

19a
House v. Bell, 547 U.S. 518, 538 (2006)). To make a
credible claim of actual innocence, Petitioner must
present new, reliable evidence that was not presented
at trial − such as exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical
evidence. House, 547 U.S. at 537 (citing Schlup, 513
U.S. at 324); see McDonald v. Lemke, 737 F.3d 476,
483-84 (7th Cir. 2013) (“[A]dequate evidence is
‘documentary, biological (DNA), or other powerful
evidence: perhaps some non-relative who places him
out of the city, with credit card slips, photographs, and
phone logs to back up the claim.”) (internal quotation
omitted). Petitioner has no such evidence. Instead, he
argues that the state’s witnesses lied, and he ignores
the fact that several eyewitnesses placed him in the
gangway immediately before the shooting. Such
evidence does not demonstrate actual innocence.
McQuiggins, 133 S. Ct. 1928.
For all of these reasons, claims 1(a), 1(d), 2, 3(a),
3(b), and 5 are denied because they are procedurally
defaulted.
B.

Merits Review – Claims 1(b), 1(c), 4, 6,
and 7)

Petitioner’s remaining claims – claims 1(b), 1(c), 4,
6, and 7 − are denied on the merits. A writ of habeas
corpus cannot issue unless Petitioner demonstrates
that he is in custody in violation of the Constitution,
laws, or treaties of the United States. 28 U.S.C.
§ 2254(a). Because the state courts adjudicated
Petitioner’s claims on the merits, the Court’s review of
the present habeas corpus petition is governed by the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA). Under the AEDPA, the Court may not grant
habeas relief unless the state court’s decision on the

20a
merits was contrary to, or involved an unreasonable
application of, clearly established federal law, as
determined by the Supreme Court of the United
States, or unless the state court decision was based
upon an unreasonable determination of facts. 28
U.S.C. § 2254(d).
A federal habeas court “may issue the writ under
the ‘contrary to’ clause if the state court applies a rule
different from the governing law set forth in [the
Supreme Court’s] cases, or if it decides a case
differently than [the Supreme Court has] done on a set
of materially indistinguishable facts.” Premo v. Moore,
562 U.S. 115, 128 (2011) (quoting Bell v. Cone, 535
U.S. 685, 694 (2002)). “An ‘unreasonable application’
occurs when a state court ‘identifies the correct legal
principle from [the Supreme Court’s] decisions but
unreasonably applies that principle to the facts of
Petitioner’s case.’” Rompilla v. Beard, 545 U.S. 374,
380 (2005) (quoting Williams v. Taylor, 529 U.S. 362,
413 (2000)).
Clearly established federal law refers to the
“‘holdings, as opposed to the dicta, of [the Supreme
Court’s] decisions as of the time of the relevant statecourt decision.’” Carey v. Musladin, 549 U.S. 70, 74
(2006) (quoting Williams, 529 U.S. at 412). The state
court is not required to cite to, or even be aware of, the
controlling Supreme Court standard, as long as the
state court does not contradict that standard. Early v.
Packer, 537 U.S. 3, 8 (2002). The Court begins with a
presumption that state courts both know and follow
the law. Woodford v. Visciotti, 537 U.S. 19, 24 (2002)
(citations omitted). This presumption is especially
strong when the state court is considering well
established legal principles that have been routinely

21a
applied in criminal cases for many years. Burt v.
Titlow, 134 S. Ct. 10, 15 (2013).
Finally, the Court’s analysis is “backward looking.”
Cullen v. Pinholster, 563 U.S. 170, 182 (2011). The
Court is limited to reviewing the record before the
state court at the time that court made its decision. Id.
Thus, the Court is limited in considering the Supreme
Court’s “precedents as of ‘the time the state court
renders its decision.’” Greene v. Fisher, 132 S. Ct. 38,
44 (2011) (quoting Cullen, 562 U.S. at 182; Lockyer v.
Andrade, 538 U.S. 63, 71-72 (2003)).
The AEDPA’s standard is “intentionally ‘difficult for
Petitioner to meet.’” Woods v. Donald, 135 S. Ct. 1372,
1376 (2015) (per curiam) (quoting White v. Woodall,
134 S. Ct. 1702 (2014)); Metrish v. Lancaster, 133 S.
Ct. 1781, 1786 (2013)). As a condition for obtaining
habeas corpus from a federal court, a state prisoner
must show that the state court’s ruling on the claim
being presented in federal court was “so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fair minded disagreement.” Harrington
v. Richter, 562 U.S. 86, 103 (2011). This “‘highly
deferential standard” demands that state-court
decisions be “given the benefit of the doubt.’” Cullen,
563 U.S. at 181 (quoting Woodford, 537 U.S. at 24).
1.

Claims 1(b) and (c)

In claims 1(b) and 1(c), Petitioner alleges that his
trial counsel was ineffective for promising the jury
during opening statements that they would hear from
co-Defendant Cedrick Jenkins, but later failing to call
Jenkins to testify. Petitioner argues that Jenkins’
testimony would have exonerated him.

22a
Petitioner and Jenkins were indicted together for
Hill’s first degree murder. Wilborn, 962 N.E.2d at 531.
Petitioner moved to sever his jury trial from Jenkins’
jury trial, and that motion was granted. Id. In moving
to sever, Petitioner argued that Jenkins had made
statements implicating Petitioner, and that, at trial,
Jenkins would be presenting a defense that conflicted
with Petitioner’s defense. Id. at 544.
During opening statements, Petitioner’s attorney
told the jury that “you’ll see and hear from Jenkins.” 3
Id. at 531. Counsel explained that the victim had
“problems” with Petitioner and Jenkins. Id. He told
the jury they would hear that the victim approached
Petitioner and Jenkins on the day of the shooting, and
accused Jenkins of “being out and looking for him with
a gun.” Id. The victim also told Jenkins that “I’ll have
this neighborhood flooded and you won’t get out.” Id.
Defense counsel promised the jury that Jenkins would
testify about what happened inside the gangway. Id.
He argued that this evidence would show that: (1)
Petitioner and Jenkins reasonably feared the victim;
(2) the victim followed them into the gangway; and, (3)
Petitioner was reasonable in his actions in the
gangway to protect himself and Jenkins from the
victim. [22-16], p. 326.
Despite defense counsel’s opening statement,
neither Jenkins nor Petitioner testified. Wilborn, 962
N.E.2d at 535. Following the close of the state’s case,
defense counsel communicated to the trial court that
he had concluded, based upon an interview of Jenkins,
that it was best to not call Jenkins as a witness. Id.
The trial court confirmed on the record with Petitioner
Defense counsel’s opening statement appears in the record
at [22-16], pp. 323-26.
3

23a
that Petitioner had spoken to his attorney about this
issue, and that Petitioner agreed that it was best to not
call Jenkins. 4 Id.
The defense’s case consisted of calling a Chicago
police officer who responded to the murder scene. Id.
The officer explained that he went to the scene after
being flagged down by two men. Id. At the scene, he
observed other men kneeling next to the victim, and
approximately 60 other people in the area near the
victim. Id. He asked several people, including
Richards, to stay to speak to detectives. Id. Richards
nevertheless left the area before the detectives
arrived. Id.
Defense counsel pressed the theory that the victim
was after Petitioner and Jenkins because they were in
a dispute over drug territory, and argued that the
victim had pursued them, not the other way around.
Defense counsel claimed that Petitioner was not guilty
because “he tried to walk away.” [22-16], p. 267.
Although neither Petitioner nor Jenkins testified,
defense counsel was able to rely upon testimony from
the State’s witnesses to suggest that this was a dispute
between rival gang members, and that the victim
pursued Petitioner and Jenkins into the gangway. Id.
at 254-55.
Additionally, defense counsel pursued alternative
arguments suggesting that the prosecution had
presented insufficient evidence to support a guilty
finding as to Petitioner. Id. at 249. Counsel elicited
testimony and evidence demonstrating that Petitioner
was not armed with a handgun when the police
The trial court’s colloquy with Petitioner appears in the
record at [22-16], pp. 195-97.
4

24a
searched Woolard and Daniels’ apartment, and that
only one gun recovered in the search could be
conclusively linked to a shell casing recovered from the
crime scene, and that gun was found in Woolard’s
bedroom. Id. Counsel relied upon the testimony of the
State’s witnesses to show that there was animosity
between Petitioner and the victim, and that the victim
followed Petitioner into the gangway. Id. at 251.
Defense counsel also pointed out that Richards was
seen standing over the victim’s body and then chose to
flee the scene, instead of speaking to detectives as
requested. Id. at 260.
Petitioner submitted an affidavit from Jenkins in
support of the ineffective assistance of counsel
arguments he raised in his post-conviction petition.
Wilborn, 962 N.E.2d at 536. In that affidavit, Jenkins
claimed that he had been willing to testify at
Petitioner’s trial that the victim followed him and
Petitioner into the gangway with his hands in his
pockets and said, “G.K.D. yall some bitches.” Jenkins
claims he told the victim to “go about his business,”
and then turned to catch up with Petitioner. Id. The
victim continued to pursue Petitioner and Jenkins
while “talking crazy with his hand in his pocket.” Id.
Jenkins explained that he turned around a second
time, again telling the victim “to go about his
business.” Id. At that time, Jenkins believed that the
victim was about to pull out a gun. Id. Jenkins then
drew a handgun and shot the victim once. Id. Jenkins
explained that Petitioner did not know he was armed
and fled when he heard the shot. Id. Jenkins stated he
shot the victim two more times before the gun jammed.
Id. He then pulled out a second gun and shot the victim
four more times. Id. Jenkins said that he was arrested
with one of the two handguns used in the shooting and

25a
disposed of the second gun. Id. He also claims he told
the police that he alone shot the victim. Id.
The state appellate court on post-conviction review
(the last court to consider Petitioner’s claims on the
merits) concluded that Petitioner could not
demonstrate ineffective assistance of counsel under
Strickland v. Washington, 466 U.S. 668 (1984). Id. at
542-47. The state court identified Strickland’s familiar
two-prong standard of deficient performance and
prejudice. Id. at 542. Considering the first prong, the
court concluded that Petitioner could not demonstrate
that counsel’s performance fell below an objective
standard of reasonableness. Id. The state court
concluded that it was proper for defense counsel to
change strategy once he determined that Jenkins was
adversarial to Petitioner. Id. at 544. Counsel discussed
the issue with Petitioner and made a record of the
issue in open court, where Petitioner agreed with the
decision. Id. The court further noted that defense
counsel provided a competent defense at trial. Id. at
544.
The Court cannot conclude that the state court
ruling on these issues was either contrary to, or an
unreasonable application of, Strickland. Both
Strickland and the AEDPA are deferential standards,
so the Court must apply a doubly deferential standard
when evaluating these issues. Knowles v. Mirzayance,
556 U.S. Ill, 123 (2009). Because the state court
considered Strickland’s performance prong and did not
need to address the question of prejudice, the Court
applies AEDPA deference to the state court’s
performance ruling and reviews the prejudice prong de
novo. Campbell v. Reardon, 780 F.3d 752, 769 (7th Cir.
2015).

26a
Regarding the performance prong, the Court’s
analysis is highly deferential because there is
presumption that the challenged action might be
considered sound trial strategy. Bell v. Cone, 535 U.S.
685, 698 (2002) (internal quotation marks and
citations omitted). Here, the state court concluded that
counsel’s change of course during trial was a matter of
sound trial strategy. An attorney may reasonably
change a previously announced trial strategy when
“unexpected developments” require it. United States ex
rel. Hampton v. Leibach, 347 F.3d 219, 257 (7th Cir.
2003). When the failure to provide promised testimony
cannot, however, be “chalked up to unforeseen events,
the attorney’s broken promise may be unreasonable,
for little is more damaging than to fail to produce
important evidence that had been promised in an
opening.” Id. (internal quotation marks and citations
omitted).
Here, the record shows that Jenkins shifted his
position regarding Petitioner at various times during
these proceedings. Petitioner sought to sever his trial
from Jenkins’ trial because Jenkins made statements
to the police implicating Petitioner and was expected
to be a hostile witness if called by Petitioner to testify.
Additionally, it appears that, before trial, defense
counsel spoke with Jenkins and determined that
Jenkins would testify that Petitioner was not involved
with Hill’s murder. Before counsel could present him,
however, Jenkins reverted to his prior story and was
again expected to testify against Petitioner’s interest.
Counsel raised the issue with the trial judge, who then
asked Petitioner about the issue on the record:
THE COURT: Mr. Wilbourn, your attorney
informed me that he has your co-defendant, Mr.
Cedric Jenkins, present. And he is available. He

27a
has been interviewed. Based on that interview,
your attorney has decided that he thinks it is to
your best interest not to call this witness. He also
explained to me he discussed that with you. Is that
correct?
THE DEFENDANT: Yes, sir.
THE COURT: Do you agree with that?
THE DEFENDANT: Yes, sir.
THE COURT: Also, he’s informed me that you
have decided that you do not wish to testify in your
own behalf. Is that correct?
THE DEFENDANT: Yes, sir.
THE COURT: Anyone threatened you or force
you not to testify?
THE DEFENDANT: No, sir.
THE COURT: Anybody promise you anything to
get you not to testify?
THE DEFENDANT: No, sir.
THE COURT: You have discussed this with your
attorney as well?
THE DEFENDANT: Yes, sir.
THE COURT: Do you understand even though
based on his knowledge, expertise and experience
he may make a recommendation to you as to how
he suggests you proceed, but the decision to testify
or not to testify is your decision and not his. Do you
understand that?
THE DEFENDANT: Yes, sir.
[22-16], pp. 195-196.

28a
Trial counsel cannot be faulted for the shifting
nature of Jenkins’ position. Counsel properly
investigated the issue and made strategic choices
based on the information he gathered. Strickland, 466
U.S. at 690-91 (instructing that strategic choices made
after thorough investigation of the law and facts are
virtually unchallengeable). It was Jenkins, not the
defense attorney, who turned on Petitioner. The record
provides no evidence to suggest that defense counsel
should have anticipated Jenkins’ story change.
Additionally, counsel pursued arguments that were
plausible without Jenkins’ testimony by asserting the
same self-defense theory and arguing that the state
presented insufficient evidence to convict Petitioner.
The state court’s ruling that defense counsel did not
provide deficient performance is neither contrary to,
nor an unreasonable application of, Strickland.
Nor can Petitioner demonstrate prejudice from
counsel’s change in strategy or his failure to call
Jenkins as a witness. To demonstrate prejudice,
Petitioner must show that there was “‘a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.’” Buck v. Davis, 137 S. Ct. 759, 776 (2017)
(citing Strickland, 466 U.S. at 694). This Petitioner
cannot do. Several eyewitnesses placed Petitioner in
the gangway with Jenkins and the victim immediately
before the shooting. Petitioner implicated himself to
Daniels, and, at the time of his arrest, he possessed the
same type of ammunition that was found at the crime
scene.
Failing to undermine such compelling evidence,
Jenkins’ contrary story in support of Petitioner’s postconviction petition suffers from a fatal lack of
credibility. Even though Jenkins now claims in his

29a
affidavit that he was the sole shooter, and that
Petitioner was merely an innocent bystander, the
record shows that Jenkins’ version of events has
turned and twisted, like leaves in an autumn wind,
running the gamut from one extreme (implicating
Petitioner) to the other (now allegedly exonerating
him). Beyond such material inconsistencies, Jenkins’
most recent story appears contrived to fit the forensic
testing showing that the victim was shot with bullets
from two different guns. Only after such testing came
to light, Jenkins claims, conveniently, that he first
shot the victim with one gun, and then used a second
gun when the first gun jammed. He further claims now
that he got rid of one gun, but was arrested with the
second gun. That Jenkins would make the effort to
dispose of one murder weapon but hold on to the
second used in the same offense defies common sense.
Far from demonstrating prejudice, Jenkins’ affidavit
lacks credibility and raises as many questions as it
answers.
Moreover, the undisputed facts confirm that
Petitioner and Jenkins were fellow gang members in
the midst of an ongoing fight with the victim’s gang
over drug territory. Consistent with the jury’s verdict
convicting the Petitioner, a fair reading of the record
indicates that the murder Petitioner committed
resulted from a simple, but tragic, turf war over drug
territory.
In short, Petitioner has failed to demonstrate
constitutional error, and so the state court ruling is
neither contrary to, nor an unreasonable application
of, Stickland. Claims 1(b) and 1(c) are denied on the
merits.

30a
2.

Claim Four

Petitioner argues in claim four that the prosecutor
made improper comments in closing arguments by
suggesting that Petitioner’s statement that he might
“hit a lick” demonstrated his intent to commit a
robbery. A prosecutor’s comments violate due process
only if: (1) the comments are improper; and (2) the
improper comments violated the prisoner’s right to a
fair trial in context of the record as a whole. Darden v.
Wainwright, 477 U.S. 168, 181 (1986); Ellison v.
Acevedo, 593 F.3d 625, 635-36 (7th Cir. 2010). On
direct appeal, the state appellate court rejected this
claim, explaining that the prosecutor’s argument was
supported by Daniels’ testimony. [22-4]. True enough:
Daniels testified that he took “hit a lick” to mean that
Petitioner might try to commit a robbery to get money
quickly. Thus, the comment was supported by the trial
record. [22-17], p. 11. As a result, the challenged
comment is not improper, see United States v. Tucker,
820 F.2d 234, 237 (7th Cir. 1987) (instructing that a
prosecutor may make comments at closing argument
that are supported by the evidence at trial), and there
is no constitutional error. Claim four is denied on the
merits.
3.

Claim Six

Claim six is premised upon Apprendi v. New Jersey,
530 U.S. 466 (2000). Apprendi holds that any fact,
other than the fact of a prior conviction, that must be
proved in order to increase the prisoner’s sentence
above what would otherwise be the statutory
maximum, must be found by a jury beyond a
reasonable doubt. 530 U.S. at 490. Petitioner claims
that the trial court’s sentence violated Apprendi
because it included a 25-year enhancement for

31a
personally discharging the gun that caused the
victim’s death, even though the jury did not find
beyond a reasonable doubt that petitioner personally
discharged the gun that caused Hill’s death.
As explained above, the trial court sentenced
Petitioner to a term of imprisonment of 55 years; that
term included 30 years for the first degree murder,
plus the 25-year enhancement mentioned. Yet, in
total, Petitioner’s 55-year sentence was less than the
60-year statutory maximum sentence he faced for his
murder conviction. See 730 ILCS 5/5-8-1(a)(1)(a)
(establishing sentencing range for murder without any
sentencing enhancements at not less than 20 years
and not more than 60 years). As a result, there was no
Apprendi violation. See, e.g., United States v. Knox,
301 F.3d 616, 620 (7th Cir. 2002) (term of
imprisonment that does not exceed the statutory
maximum prison sentenced does not violate
Apprendi); United States v. Martinez, 301 F.3d 860,
864 (7th Cir. 2002) (Apprendi does not apply where
sentence imposed by the court falls within the
statutory range). Claim six is denied on the merits.
4.

Claim Seven

Petitioner argues in claim seven that the trial court
erred in allowing the introduction of hearsay evidence.
In this case, the challenge to the introduction of
hearsay raises a non-cognizable state law issue. Estell
v. McGuire, 502 U.S. 62, 72 (1991). Accordingly, claim
seven is denied.
IV. Certificate of Appealability

The Court declines to issue a certificate of
appealability under Rule 11 of the Rules Governing
Section 2254 Cases in the United States District
Courts. Petitioner cannot make a substantial showing

32a
of the denial of a constitutional right, nor can he show
that reasonable jurists would debate (much less
disagree), with this Court’s resolution of this case.
Resendez v. Knight, 653 F.3d 445, 446-47 (7th Cir.
2011) (citing Slack v. McDaniel, 529 U.S. 473, 484
(2000); Barefoot v. Estelle, 463 U.S. 880, 893 & n.4
(1983)).
Petitioner is advised that this is a final decision
ending his case in this Court. If Petitioner wishes to
appeal, he must file a notice of appeal with this Court
within thirty days of the entry of judgment. See Fed.
R. App. P. 4(a)(1). Petitioner need not bring a motion
to reconsider this Court’s ruling to preserve his
appellate rights, but if he wishes to do so, he may file
a motion under Federal Rule of Civil Procedure 59(e)
or 60(b). Any Rule 59(e) motion must be filed within 28
days of the entry of this judgment. See Fed. R. Civ. P.
59(e). The time to file a motion pursuant to Rule 59(e)
cannot be extended. See Fed. R. Civ. P. 6(b)(2). A
timely Rule 59(e) motion suspends the deadline for
filing an appeal until the Rule 59(e) motion is ruled
upon. See Fed. R. App. P. 4(a)(4)(A)(iv). Any Rule 60(b)
motion must be filed within a reasonable time and, if
seeking relief under Rule 60(b)(1), (2), or (3), must be
filed no more than one year after entry of the judgment
or order. See Fed. R. Civ. P. 60(c)(1). The time to file a
Rule 60(b) motion cannot be extended. See Fed. R. Civ.
P. 6(b)(2). A Rule 60(b) motion suspends the deadline
for filing an appeal until the Rule 60(b) motion is ruled
upon, but only if the motion is filed within 28 days of
the entry of judgment. See Fed. R. App. P.
4(a)(4)(A)(vi).

33a
V.

Conclusion

Petitioner’s habeas corpus petition [1] is denied on
the merits. Any pending motions are denied as moot.
The Court declines to issue a certificate of
appealability. The Clerk is instructed to enter a
judgment in favor of Respondent and against
Petitioner. On the Court’s own motion, Respondent
Randy Pfister is terminated, and Michael Melvin, the
current Warden of Pontiac Correctional Center, is
added as Respondent. The Clerk shall alter the case
caption to Wilborn v. Melvin. Civil case terminated.
Dated: August 2, 2017
ENTERED:
s/ John Robert Blakey
John Robert Blakey
United States District Judge

34a
__________
APPENDIX C
__________
2011 IL App (1st) 092802
Appellate Court of Illinois,
First District, Sixth Division.
The PEOPLE of the State of
Illinois, Plaintiff-Appellee,
v.
Joseph WILBORN, Defendant-Appellant.
No. 1-09-2802.
Sept. 23, 2011.
As Modified upon denial of rehearing Feb. 24, 2012.
Attorneys and Law Firms
Michael J. Pelletier, State Appellate Defender, Alan D.
Goldberg, Deputy Defender, Office of the State
Appellate Defender (David T. Harris, Assistant Public
Defender), for Appellant.
Anita M. Alvarez, State’s Attorney, County of Cook
(Alan J. Spellberg, Douglas P. Harvath, Sheliah C.
O’Grady, of counsel), for the People.

35a
OPINION
Presiding Justice R. GORDON delivered the
judgment of the court, with opinion.
¶ 1 Following a jury trial, defendant Joseph Wilborn 1
was convicted of first-degree murder. 720 ILCS 5/91(a)(1) (West 2000). After hearing aggravation and
mitigation, defendant was sentenced to 55 years in the
Illinois Department of Corrections, 30 years for the
first-degree murder and 25 years as a firearm
enhancement. Defendant’s conviction was affirmed on
direct appeal (People v. Wilbourn, No. 1-06-2088 (2008)
(unpublished order under Supreme Court Rule 23)).
Defendant then filed a petition for postconviction relief
in which he claimed ineffective assistance of trial and
appellate counsel. The trial court dismissed
defendant’s postconviction petition at the first stage of
the proceedings, finding that: (1) the issues presented
in the petition are barred by the doctrine of res
judicata; (2) defendant’s allegations were conclusory
and the petition lacked supporting documentation;
and (3) the petition is frivolous and patently without
merit. Defendant now appeals, and we affirm. See
People v. Jones, 399 Ill.App.3d 341, 359, 339 Ill.Dec.
870, 927 N.E.2d 710 (2010) (we may affirm the decision
of the trial court on any grounds substantiated by the
record, regardless of the trial court’s reasoning).

Defendant’s direct appeal records use the spelling
“Wilbourn” for his last name. However, his postconviction
records, as well as his signature on his postconviction
filings, use the spelling “Wilborn” for his last name. In this
decision we will use the spelling of defendant’s last name
found on his postconviction petition and records.
1

36a
¶2 I. BACKGROUND
¶ 3 Defendant and codefendant, Cedrick Jenkins, were
arrested and charged by indictment with the firstdegree murder of Emmit Hill (victim). The trial court
granted defendant’s motion for severance and
defendant’s jury trial commenced on June 12, 2006.
¶ 4 During opening statements, defense counsel told
the jury that “you’ll see and hear from Jenkins.” He
stated that the victim had “problems” with defendant
and Jenkins, and that Jenkins “will talk to you about
[their] relationship with [the victim].” He also told the
jury that the victim had approached defendant and
Jenkins on the day of the shooting, accused Jenkins of
“being out and looking for him with [a] gun,” and told
Jenkins that “I’ll have this neighborhood flooded and
you won’t get out.” Defense counsel further stated as
follows:
“[Jenkins] will tell you what happened
inside that gangway [where the victim was
found shot]. It won’t be the same story that
you here from [another witness] but the
facts of who pursued, who wouldn’t let this
go, who having seen what he regards as
suspicious, disregards it and it follows him
through that gangway anyway * * *.”
¶ 5 Following opening statements, the State called
eight witnesses: (1) Frederick Sanders; (2) Clarence
Morgan; (3) David Parker; (4) Chicago police detective
Mike Qualls; (5) Stacey Daniels; (6) Chicago police
officer Andre Bedford; (7) forensic investigator John
Kaput; and (8) Cook County medical examiner Dr.
Valerie Arangelovich.

37a
¶ 6 A. Frederick Sanders’s Testimony
¶ 7 Sanders testified that, at approximately 11:30 p.m.
on July 28, 2004, he exited his apartment building
located on the 6200 block of South Michigan Avenue
and walked to his automobile where his friend, Randy
Griffin, was waiting in the passenger seat. Sanders
testified that Griffin told him that he had heard “a
couple of gunshots” while he was waiting. Sanders
then drove his vehicle westbound on 63rd Street to
Wabash. Sanders testified that when he turned north,
he observed a person he knew by the nickname of
“Moochie,” whose real name is Samuel Richards,
standing over a body lying in a gangway located near
the northeast corner of 63rd Street and Wabash.
Sanders testified that he then stopped his vehicle,
exited it, and telephoned the police with his cellular
telephone. While he waited for the police to arrive, he
did not observe anyone in the area with a gun, nor did
he observe Richards remove a handgun from the body.
He did not observe defendant or Jenkins in the area.
¶ 8 Sanders also testified that he was not friends with
defendant, the victim or Jenkins. He testified that he
knew defendant because he observed him “being
around the [apartment] building.” In addition, he
testified that he “knew [the victim] from the
neighborhood” and knew Jenkins because Jenkins
previously resided at the apartment building.
¶ 9 B. Clarence Morgan’s Testimony
¶ 10 Morgan testified that on July 28, 2004, at 11 p.m.,
he was standing on the South Michigan Avenue side of
Sanders’s apartment building, drinking liquor with
the victim, who was a friend of his, and with “other
people,” which included Richards and a man named
David Parker. He testified that defendant, Jenkins,

38a
and a man known as “Chub” were standing “in front”
of the apartment building. He testified that he had
known defendant and Jenkins for approximately 10
years because, at one time, they both lived in the same
apartment building as him.
¶ 11 Morgan testified that “Chub” handed a hooded
sweatshirt to Jenkins and the victim then made a
“smart comment” to “Chub.” Morgan testified that the
victim said to “Chub,” “was he on bullshit,” which he
understood to mean, he was “up to no good at the
time.” Morgan testified that he did not hear the victim
threaten defendant or Jenkins at any time on the night
of the shooting. Morgan further testified that prior to
the shooting he was unaware of any animosity
between defendant, Jenkins, and the victim.
¶ 12 Morgan also testified that, after the victim made
the comment to “Chub,” he observed defendant and
Jenkins walk in a westerly direction across South
Michigan Avenue and through a gangway toward
Wabash. He testified that the victim followed them
into the gangway, but then he lost sight of the victim.
He testified that he did not observe a handgun on the
victim. Morgan testified that, approximately one
minute later, he heard five gunshots coming from the
direction of the gangway. When the victim did not
return, Morgan decided to walk to Wabash to
determine if the victim had arrived at the other side of
the gangway. He testified that he walked south to 63rd
Street then west to Wabash to avoid walking through
the gangway. When he arrived at the corner of 63rd
Street and Wabash, he observed the victim lying on
the ground in the gangway. He also observed several
people, including Richards and Parker, standing near
the victim’s body, but he did not observe defendant or
Jenkins in the area.

39a
¶ 13 On cross-examination, Morgan testified that
defendant, Jenkins, and “Chub” were members of the
“Insane Gangster Disciples” gang, while he was a
member of the “Black Gangster Disciples,” a rival
gang. He testified that his gang “controlled” Sanders’s
apartment building, but after a series of arrests of
Black Gangster Disciple members, defendant and
Jenkins started “hanging around” the apartment
building. He further testified that the victim had a
confrontation with defendant, Jenkins, and “Chub”
two weeks before the shooting because they were
trying to take over the drug sales at the building.
¶ 14 C. David Parker’s Testimony
¶ 15 Parker testified that he was a friend of the victim
and that Jenkins had a “beef” with the victim because
the victim had been discussing Jenkins and Jenkins’s
“parent” in the presence of others. He testified that two
days before the shooting, defendant asked Parker to
tell the victim to stop talking about Jenkins.
¶ 16 Parker testified that at 11 p.m. on the evening of
July 28, 2004, he was visiting with the victim,
Richards, Morgan, and a man by the name of Keith
Wright. He testified that they were drinking liquor
and standing on the South Michigan Avenue side of
Sanders’s apartment building. He testified that
defendant, Jenkins and “Chub” walked passed them.
Parker observed “Chub” remove his hooded sweatshirt
and hand it to Jenkins. Parker testified that he
thought it was unusual for a person to wear a hooded
sweatshirt because the evening was “cool, but it wasn’t
cool enough for a [hooded sweatshirt].” Parker denied
that he heard the victim say anything to defendant,
Jenkins or “Chub” at that time.

40a
¶ 17 Parker testified that two people began arguing
across the street from the apartment building, and he
walked toward the couple to stop the argument. He
testified that he then heard seven gunshots and
observed the gangway “lighting up from sparks.”
Parker testified that he noticed that the victim was no
longer in the area and Morgan told him that “I think
[the victim] just followed [defendant] and [Jenkins] to
the gas station.” Parker testified that he told the group
that they should run to 63rd and Wabash to find out if
anyone had been shot. He testified that when they
arrived at Wabash, he observed the victim on the
ground in the gangway. Parker testified that he and
Morgan then ran to the victim’s residence to inform his
family of the shooting. He testified that he did not
observe a gun on the victim that evening. Parker
testified that Richards searched the victim’s pockets to
ensure there were no drugs on the victim.
¶ 18 D. Chicago Police Detective Mike Qualls’s
Testimony
¶ 19 Detective Qualls testified that when he arrived at
the scene at approximately 12:30 a.m., he did not
locate a weapon near the body. He testified that he
spoke with Parker the following day, who told him that
just before he heard the gunshots, he heard the victim
ask Jenkins, “What you all bitches doing with those
hoodies?” He testified that after he and other officers
interviewed witnesses, an investigative alert was
issued for defendant, Jenkins, and “Chub.” Detective
Qualls testified that he and other detectives were
initially unable to locate the three men.

41a
¶ 20 E. Stacey Daniels’s Testimony
¶ 21 Daniels testified that he had been a friend of
defendant’s for more than four years. He testified that
two weeks after the shooting, on August 12, 2004, he
was with defendant at a mutual friend’s home when
defendant told Daniels that he “got into some
problems” and that he was in “some serious shit.”
Daniels testified that defendant did not immediately
explain this remark. Daniels, defendant and Jenkins
then departed from their friend’s home and walked to
Daniels’s apartment, which he shared with a man
named Xavier Woolard. Daniels testified that when
they arrived at his apartment, Woolard was in the
apartment along with his girlfriend, named LaKeisha.
¶ 22 Daniels testified that he was standing on a rear
porch of his apartment with defendant and Jenkins
when defendant explained to him that he “got into it
with some dude,” that there was a shooting, and that
he “had to give it to [the] n***er.” According to Daniels,
defendant explained that he was walking through a
gangway and observed that the “dude was following
him.” He told Daniels that he “didn’t know what dude
had or something and he thought dude was fittin’ to do
something to him” and that defendant said that he
“turned around busting,” which Daniels understood to
mean shooting. Daniels testified that defendant then
told him he needed to obtain money to leave town and
that he might try to “hit a lick or something like that,”
which Daniels understood to mean “come up on some
money” or to commit a robbery.
¶ 23 After his conversation with defendant, Daniels
testified that he went to a party with Woolard, while
defendant, Jenkins, and LaKeisha stayed at Daniels’s
and Woolard’s apartment. Woolard was arrested at the

42a
party for an unrelated battery offense and Daniels
then returned to his apartment.
¶ 24 F. Chicago Police Officer Andre Bedford’s
Testimony
¶ 25 Officer Bedford testified that he arrested Woolard
at the party. Following the arrest, Woolard told him
that there were two people, nicknamed “Little Joe and
Ced,” who were at his apartment and were wanted on
murder charges. Woolard then consented to a search
of his apartment. Officer Bedford performed a police
computer search of the nicknames and discovered that
“Little Joe” was a nickname for defendant and that
“Ced” was a nickname for Jenkins. Officer Bedford
observed that there was an investigative alert for
defendant and Jenkins in relation to the July 28
shooting.
¶ 26 Officer Bedford testified that, at 5 a.m. the
following day, he and two other police officers
conducted a search of Daniels’s and Woolard’s
apartment, where they found four individuals,
defendant, Jenkins, Daniels and LaKeisha. During the
search, the officers found a 9-millimeter Glock brand
handgun, loaded with two bullets, and an additional
28 bullets in Woolard’s bedroom. The officers also
searched defendant, who had one Wolf brand Luger
bullet and four “hollow point” Luger bullets in his
pocket; and Jenkins, who had a 9-millimeter High
Point handgun, loaded with seven bullets, on his
person.
¶ 27 G. Forensic Investigator Kaput’s Testimony
¶ 28 Forensic investigator Kaput testified that he
arrived at the crime scene at approximately 10
minutes after midnight on July 29, 2004. He testified

43a
that he conducted a walk-through of the crime scene,
where he found five fired Wolf brand 9-millimeter
Luger cartridge casings and a 9-millimeter fired
bullet. Kaput placed the cartridge casings and fired
bullet into individual envelopes and submitted the
envelopes to the Illinois State Police crime lab.
¶ 29 H. Assistant Cook County Medical Examiner Dr.
Valerie Arangelovich’s Testimony
¶ 30 Dr. Arangelovich testified that she performed an
autopsy on the victim. She observed that the victim
had seven bullet entrance wounds and five exit
wounds. She recovered two bullets from the victim’s
body and a third bullet “hanging loose in his clothes.”
Dr. Arangelovich placed the bullets into individual
envelopes and submitted the envelopes to the Illinois
State Police crime lab. She concluded that the victim
died from multiple gunshot wounds.
¶ 31 I. Stipulations
¶ 32 The parties stipulated that four of the five fired
cartridge casings Kaput found at the crime scene were
fired from the same handgun, but not by either the
Glock handgun that was found in Woolard’s bedroom,
or the High Point handgun, which was found on
Jenkins, during the search of Woolard’s apartment.
However, the fifth fired cartridge casing found at the
crime scene was fired from the Glock handgun.
¶ 33 The parties further stipulated to the following:
(1) the fired bullet found at the crime scene by Kaput
was not fired by the High Point handgun, but the
forensic test on the bullet was inconclusive as to
whether the bullet was fired from the Glock handgun;
(2) the three bullets recovered by Dr. Arangelovich
were fired from the same handgun, but not from the

44a
Glock or High Point handgun; and (3) the fired bullet
recovered by Kaput from the crime scene was not fired
by the same handgun as the three bullets recovered by
Dr. Arangelovich from the victim’s body and clothes.
¶ 34 After the State rested, defense counsel moved for
a directed verdict, which was denied. During a recess
before defense counsel presented the defense, the
following colloquy took place:
“THE COURT: [Defendant], your attorney
informed me that he has your co-defendant,
[Jenkins], present. And he is available. He has been
interviewed. Based on that interview, your
attorney has decided that he thinks it is to your
best interest not to call this witness. He also
explained to me [that] he discussed that with you.
Is that correct?
DEFENDANT: Yes, sir.
THE COURT: Do you agree with that?
DEFENDANT: Yes, sir.”
¶ 35 The defense did not call Jenkins as a witness, and
defendant did not testify on his own behalf. Defense
counsel called one witness, Sergeant Cherry 2, who
testified that he responded to the crime scene at
midnight on July 28, 2004. He testified that when he
arrived at the scene two men flagged him down. He
observed two other men kneeling next to the victim
and that approximately 60 other people were in the
area near the victim. He testified that he asked several
people, including Richards, to stay to speak with

Sergeant Cherry’s first name does not appear in the
record.
2

45a
detectives. He testified that when the detectives
arrived, Richards had left the area.
¶ 36 As noted, the jury found defendant guilty of firstdegree murder. The trial court sentenced defendant to
30 years in the Illinois Department of Corrections plus
25 years for personally discharging a firearm.
Defendant appealed his conviction, which did not
include a claim of ineffective assistance of counsel.
Defendant’s conviction was affirmed on direct appeal.
¶ 37 J. Defendant’s Pro Se Postconviction Petition
¶ 38 On June 16, 2009, defendant filed a pro se petition
for postconviction relief, in which he argued, inter alia,
that his trial counsel was ineffective for failing to
present the exculpatory testimony of Jenkins, which
would have fulfilled a promise made to the jury in
defense counsel’s opening statements that Jenkins
would “tell [them] what happened inside that
gangway.” Defendant also claims that appellate
counsel was ineffective for not raising the issue on
direct appeal.
¶ 39 In support of his petition, defendant attached a
signed affidavit from Jenkins. Above Jenkins’s
signature is written: “Pursuant to *** 735 ILCS 5/1109, I declare, under penalty of perjury, that
everything contained herein is true and accurate to the
best of my knowledge and belief.” The affidavit is not
notarized. In his petition, defendant alleged that
Jenkins’s affidavit is “not notarized [because the]
Menard Correctional Center law library refused to do
so.”
¶ 40 Jenkins stated in his affidavit that he was willing
to testify at defendant’s trial and that he would have
testified that the victim followed him and defendant

46a
into the gangway and then said to them, “G.K.D. yall
some bitches” with his hand in his pocket. Jenkins
stated that he told the victim to “go about his
business,” and turned to “catch up” with defendant. He
stated that the victim continued to follow them and
that the victim was “talking crazy with his hand in his
pocket.”
¶ 41 Jenkins stated that he turned around “a second
time” and told the victim “to go about his business.”
Jenkins stated that the victim then “acted like he was
about to pull a gun out of his pocket.” Jenkins stated
that he then “pulled out” a handgun and shot at the
victim once. He stated that defendant did not know
that he was armed and fled when he heard the shot.
Jenkins stated that he shot the victim two more times
and then his handgun jammed. He then “pulled out” a
second handgun and fired four more shots at the
victim. Jenkins stated that he was arrested with one
of the handguns that he used in the shooting and that
he told police he had discarded the second handgun.
He also stated that he told an arresting police officer
that he alone shot the victim.
¶ 42 A hearing was held on defendant’s petition. On
September 10, 2009, the trial court dismissed
defendant’s postconviction petition in a written order,
finding that: (1) the issues raised in the petition were
also raised on direct appeal and therefore barred by
the doctrine of res judicata; (2) defendant’s allegations
were conclusory and defendant’s petition lacked
required supporting documents “such as affidavit or
other sworn statements”; and (3) defendant’s petition
was frivolous and patently without merit.
¶ 43 This appeal follows.

47a
¶ 44 II. ANALYSIS
¶ 45 Although defendant’s postconviction petition
raises 15 claims of ineffective assistance of trial and
appellate counsel, we consider only those claims that
defendant has raised in this appeal. See Ill. S.Ct. R.
341(h)(7) (eff. July 1, 2008).
¶ 46 On appeal, defendant claims that the trial court
erred in dismissing his postconviction petition at the
first stage because: (1) he raised the “non-frivolous
constitutional claim[s]” that trial counsel was
ineffective for “making an unfulfilled promise to the
jury to present exonerating testimony of co-defendant
Jenkins,” and that appellate counsel was ineffective
for failing to raise this issue on direct appeal; and
(2) the trial court “overlook[ed] Jenkins’s affidavit,”
which supported defendant’s petition.
¶ 47 A. Standard of Review
¶ 48 A trial court’s dismissal of a postconviction
petition at the first stage is reviewed de novo. People
v. Hodges, 234 Ill.2d 1, 9, 332 Ill.Dec. 318, 912 N.E.2d
1204 (2009); People v. Torres, 228 Ill.2d 382, 394, 320
Ill.Dec. 874, 888 N.E.2d 91 (2008); People v. Edwards,
197 Ill.2d 239, 247, 258 Ill.Dec. 753, 757 N.E.2d 442
(2001); People v. Coleman, 183 Ill.2d 366, 388-89, 233
Ill.Dec. 789, 701 N.E.2d 1063 (1998). “A de novo review
entails performing the same analysis a trial court
would perform”; in other words, we accept all wellpleaded facts in the complaint as true while
disregarding legal or factual conclusions unsupported
by allegations of fact. Khan v. BDO Seidman, LLP, 408
Ill.App.3d 564, 578, 35O Ill.Dec. 63, 948 N.E.2d 132
(2011).

48a
¶ 49 B. Post-Conviction Hearing Act
¶ 50 The Post-Conviction Hearing Act (725 ILCS
5/122-1 et seq. (West 2008)) provides that a defendant
may challenge his or her conviction or sentence for
violations of federal or state constitutional rights.
People v. Pendleton, 223 Ill.2d 458, 471, 308 Ill.Dec.
434, 861 N.E.2d 999 (2006) (citing People v. Whitfield,
217 Ill.2d 177, 183, 298 Ill.Dec. 545, 840 N.E.2d 658
(2005)).
In a postconviction proceeding, a petitioner is not
entitled to an evidentiary hearing as a matter of right.
People v. Simms, 192 Ill.2d 348, 359, 249 Ill.Dec. 654,
736 N.E.2d 1092 (2000). To be entitled to
postconviction relief, a defendant bears the burden of
showing that he or she suffered a substantial
deprivation of his or her federal or state constitutional
rights in the proceedings. 725 ILCS 5/122-1(a) (West
2008); Pendleton, 223 Ill.2d at 471, 308 Ill.Dec. 434,
861 N.E.2d 999 (citing Whitfield, 217 Ill.2d at 183, 298
Ill.Dec. 545, 840 N.E.2d 658); People v. Evans, 186
Ill.2d 83, 89, 237 Ill.Dec. 118, 708 N.E.2d 1158 (1999);
People v. Lacy, 407 Ill.App.3d 442, 455, 347 Ill.Dec.
1013, 943 N.E.2d 303 (2011).
¶ 51 1. A Summary Dismissal Is Proper When Barred
by Res Judicata or Forfeiture
¶ 52 A proceeding under the Act is a collateral
proceeding, not an appeal from the underlying
judgment. People v. Coleman, 206 Ill.2d 261, 277, 276
Ill.Dec. 380, 794 N.E.2d 275 (2002) (citing People v.
Williams, 186 Ill.2d 55, 62, 237 Ill.Dec. 112, 708
N.E.2d 1152 (1999)); Evans, 186 Ill.2d at 89, 237
Ill.Dec. 118, 708 N.E.2d 1158. The purpose of the
proceeding is to allow inquiry into constitutional
issues relating to the conviction or sentence that were

49a
not, and could not have been, determined on direct
appeal. Whitfield, 217 Ill.2d at 183, 298 Ill.Dec. 545,
840 N.E.2d 658; Coleman, 206 Ill.2d at 277, 276
Ill.Dec. 380, 794 N.E.2d 275. Thus, all issues decided
on direct appeal are barred by the doctrine of res
judicata, and all issues that could have been raised in
the original proceeding, but were not, are procedurally
forfeited. People v. Taylor, 237 Ill.2d 356, 372, 341
Ill.Dec. 445, 930 N.E.2d 959 (2010).
¶ 53 2. A Summary Dismissal Is Proper When a
Petition Violates Section 122-2 of the Act
¶ 54 The petition cannot consist of nonfactual and
nonspecific assertions that merely amount to
conclusions that errors occurred at trial. People v.
Simms, 192 Ill.2d 348, 359, 249 Ill.Dec. 654, 736
N.E.2d 1092 (2000) (citing People v. Kitchen, 189 Ill.2d
424, 433, 244 Ill.Dec. 890, 727 N.E.2d 189 (1999)).
Rather, a petition filed under the Act must “clearly set
forth the respects in which petitioner’s constitutional
rights were violated.” 725 ILCS 5/122-2 (West 2008).
¶ 55 While a pro se postconviction petition is not
expected to set forth a complete and detailed factual
recitation, the petition “‘must set forth some facts
which can be corroborated and are objective in nature
or contain some explanation as to why those facts are
absent.’” Hodges, 234 Ill.2d at 10, 332 Ill.Dec. 318, 912
N.E.2d 1204 (quoting People v. Delton, 227 Ill.2d 247,
254-55, 317 Ill.Dec. 636, 882 N.E.2d 516 (2008)); 725
ILCS 5/122-2 (West 2008) (a petition must have
attached “affidavits, records, or other evidence
supporting its allegations or shall state why the same
are not attached”). The purpose of the “affidavits,
records, or other evidence” requirement in section 1222 of the Act (725 ILCS 5/122-2 (West 2008)) is to

50a
establish that a petition’s allegations are capable of
“‘objective or independent corroboration.’” Delton, 227
Ill.2d at 254, 317 Ill.Dec. 636, 882 N.E.2d 516 (quoting
People v. Hall, 217 Ill.2d 324, 333, 299 Ill.Dec. 181, 841
N.E.2d 913 (2005), citing People v. Collins, 202 Ill.2d
59, 67, 270 Ill.Dec. 1, 782 N.E.2d 195 (2002)). Thus, a
trial court may summarily dismiss a petition if the
defendant fails to attach the required “affidavits,
records, or other evidence” or fails to explain their
absence from his or her postconviction petition. Delton,
227 Ill.2d at 255, 317 Ill.Dec. 636, 882 N.E.2d 516
(“failure to either attach the necessary ‘affidavits,
records, or other evidence’ or explain their absence is
‘fatal’ to a post-conviction petition [citation] and by
itself justifies the petition’s summary dismissal”
(internal quotation marks omitted) (quoting Collins,
202 Ill.2d at 66, 270 Ill.Dec. 1, 782 N.E.2d 195, citing
People v. Coleman, 183 Ill.2d 366, 380, 233 Ill.Dec. 789,
701 N.E.2d 1063 (1998), quoting People v. Jennings,
411 Ill. 21, 26, 102 N.E.2d 824 (1952))).
¶ 56 3. Three Stage Process for Adjudicating a
Postconviction Petition
¶ 57 In noncapital cases, the Act provides a three-stage
process for adjudicating a petition for postconviction
relief. 725 ILCS 5/122-1 et seq. (West 2008); Pendleton,
223 Ill.2d at 471-72, 308 Ill.Dec. 434, 861 N.E.2d 999.
At the first stage, the trial court examines the petition
independently and without any further pleadings from
the defendant or any motions or responsive pleadings
from the State. People v. Brown, 236 Ill.2d 175, 184,
337 Ill.Dec. 897, 923 N.E.2d 748 (2010) (citing People
v. Gaultney, 174 Ill.2d 410, 418, 221 Ill.Dec. 195, 675
the petition, taken as true and liberally construed,
need to present the “‘gist of a constitutional claim.’”

51a
Delton, 227 Ill.2d at 254, 317 Ill.Dec. 636, 882 N.E.2d
516 (quoting Gaultney, 174 Ill.2d at 418, 221 Ill.Dec.
195, 675 N.E.2d 102); People v. Porter, 122 Ill.2d 64,
74, 118 Ill.Dec. 465, 521 N.E.2d 1158 (1988) (in order
to avoid dismissal, defendant need only present the
“gist” of a constitutional claim that would provide
relief under the Act). This “gist” standard is a low
threshold which requires the defendant to present only
a limited amount of detail, not the claim in its entirety
or legal argument or citation to legal authority.
Hodges, 234 Ill.2d at 9, 332 Ill.Dec. 318, 912 N.E.2d
1204 (“[b]ecause most petitions are drafted at this
stage by defendants with little legal knowledge or
training, this court views the threshold for survival as
low”).
¶ 58 In considering the petition at the first stage, the
trial court may examine “the trial record, the court file
of the proceeding in which the defendant was
convicted, any action taken by an appellate court in
such a proceeding, any transcripts of such proceedings,
and affidavits or records attached to the petition.”
People v. Diehl, 335 Ill.App.3d 693, 700, 270 Ill.Dec.
678, 783 N.E.2d 640 (2002) (citing 725 ILCS 5/1222.1(c) (West 1998)). The trial court may summarily
dismiss the petition if the allegations in the petition
are positively rebutted in the record. See Coleman, 183
Ill.2d at 381-82, 233 Ill.Dec. 789, 701 N.E.2d 1063
(“this court has consistently upheld the dismissal of a
post-conviction petition when the allegations are
contradicted by the record from the original trial
proceedings” (citing People v. Gaines, 105 Ill.2d 79, 9192, 85 Ill.Dec. 269, 473 N.E.2d 868 (1984), and People
v. Arhuckle, 42 Ill.2d 177, 182, 246 N.E.2d 240 (1969)));
see, e.g., People v. Williams, 364 Ill.App.3d 1017, 1025,
302 Ill.Dec. 254, 848 N.E.2d 254 (2006) (concluding

52a
that defendant failed to state the gist of a
constitutional claim that he was unfit to plead guilty
when the record “clearly show[ed] that defendant
understood the nature and purpose of the
proceedings,” informed the trial court that he
understood the charges against him, did not exhibit
“irrational” behavior in court, and actively
participated in the proceedings and conferred with
trial counsel).
¶ 59 4. A Summary Dismissal Is Proper When
Petition Is Considered “Frivolous or Patently Without
Merit”
¶ 60 The trial court must dismiss the petition in a
written order if the court finds that the petition is
“frivolous or * * * patently without merit.” 725 ILCS
5/122-2.1(a)(2) (West 2008). Neither “frivolous” nor
“patently without merit” is defined in the Act.
However, the Illinois Supreme Court has held that a
postconviction petition is considered frivolous or
patently without merit only if it “has no arguable basis
either in law or in fact.” Hodges, 234 Ill.2d at 16, 332
Ill.Dec. 318, 912 N.E.2d 1204. A petition lacking an
arguable basis in law or fact is one “based on an
indisputably meritless legal theory or a fanciful
factual allegation.” Hodges, 234 Ill.2d at 16, 332
Ill.Dec. 318, 912 N.E.2d 1204. A claim completely
contradicted by the record is an example of an
indisputably meritless legal theory. Hodges, 234 Ill.2d
at 16, 332 Ill.Dec. 318, 912 N.E.2d 1204. Fanciful
factual allegations include those that are fantastic or
delusional. Hodges, 234 Ill.2d at 17,332 Ill.Dec.
318,912 N.E.2d 1204.
¶ 61 If the trial court does not dismiss the petition as
frivolous or patently without merit, then the petition

53a
advances to the second stage. If the petition advances
to the second stage, the trial court may appoint counsel
for an indigent defendant and counsel will have an
opportunity to amend the petition. 725 ILCS 5/122-4
(West 2008). The State can file a motion to dismiss or
an answer to the petition and the trial court must then
determine whether the petition and any accompanying
documentation make a substantial showing of a
constitutional violation. 725 ILCS 5/122—5 (West
2008); Edwards, 197 Ill.2d at 246, 258 Ill.Dec. 753, 757
N.E.2d 442 (citing Coleman, 183 Ill.2d at 381, 233
Ill.Dec. 789, 701 N.E.2d 1063). If no such showing is
made, the petition is dismissed. If, however, a
substantial showing of a constitutional violation is
made, the petition is advanced to the third stage,
where the trial court conducts an evidentiary hearing.
725 ILCS 5/122-6 (West 2008); Edwards, 197 Ill.2d at
246, 258 Ill.Dec. 753, 757 N.E.2d 442.
¶ 62 In the case at bar, the trial court dismissed
defendant’s postconviction petition at the first stage
and provided in its written order three reasons for the
dismissal: (1) the issues raised in the petition were
also raised on direct appeal and therefore barred by
the doctrine of res judicata; (2) defendant’s allegations
were conclusory and defendant’s petition lacked
required supporting documents such as affidavits or
other sworn statements as required under section
122-2 of the Act; and (3) defendant’s petition was
frivolous and patently without merit. However, the
trial court did not specify which issues were dismissed
for which reason. Thus, we consider each of the trial
court’s reasons as it applies to defendant’s claims on
appeal.

54a
¶ 63 C. Whether Defendant’s Claims Are Barred by
Res Judicata
¶ 64 First, defendant claims that the trial court erred
in summarily dismissing his postconviction petition
when it found that the issues raised in the petition
were barred by res judicata.
¶ 65 In the context of a postconviction petition, res
judicata bars consideration of claims that were
previously raised and decided on direct appeal. People
v. Blair, 215 Ill.2d 427, 443, 294 Ill.Dec. 654, 831
N.E.2d 604 (2005). Defendant’s claims of ineffective
assistance of counsel were not raised on direct appeal
and, thus, cannot be barred by res judicata.
Accordingly, res judicata does not bar consideration of
defendant’s claims of ineffective assistance of trial and
appellate counsel.
¶ 66 D. Whether Defendant’s Petition “Lacked
Supporting Documents”
¶ 67 Second, defendant claims that the trial court
erred in finding that the petition “lack[ed] supporting
documentation.” The pleading requirements of the Act
are found in section 122-2 (see Hodges, 234 Ill.2d at 9,
332 Ill.Dec. 318,912 N.E.2d 1204), which requires that
the petition “clearly set forth the respects in which
petitioner’s constitutional rights were violated.” 725
ILCS 5/122—2 (West 2008). Section 122-2 also
requires that “[t]he petition shall have attached
thereto affidavits, records, or other evidence
supporting its allegations or shall state why the same
are not attached.” 725 ILCS 5/122-2 (West 2008). As
noted, defendant attached Jenkins’s affidavit, which
was signed but not notarized.

55a
¶ 68 The State argues that although defendant
attached Jenkins’s affidavit to the petition, the
affidavit is not valid because it is not notarized. Thus,
the State concludes, the trial court was not required to
consider Jenkins’s affidavit and the court properly
dismissed defendant’s postconviction petition because
it lacked supporting documentation. We disagree.
¶ 69 To be considered a valid affidavit, our supreme
court has held that an affidavit must be notarized
unless otherwise provided for by a specific supreme
court rule or statutory authorization. See Roth v.
Illinois Farmers Insurance Co., 202 Ill.2d 490, 496, 270
Ill.Dec. 18, 782 N.E.2d 212 (2002). In Roth, our
supreme court explained that “ ‘[a]n affidavit is simply
a declaration, on oath, in writing, sworn to * * * before
some person who has authority under the law to
administer oaths.’” Roth, 202 Ill.2d at 493, 270 Ill.Dec.
18, 782 N.E.2d 212 (quoting Harris v. Lester, 80 Ill.
307,311 (1875)). Thus, the supreme court concluded,
statements in writing that have not been sworn to
before an authorized person cannot be considered as
affidavits. Roth, 202 Ill.2d at 494, 270 Ill.Dec. 18, 782
N.E.2d 212.
¶ 70 In determining the validity of Jenkins’s proposed
affidavit, we find instructive a case from the Second
District of the Appellate Court, People v. Niezgoda, 337
Ill.App.3d 593, 271 Ill.Dec. 998, 786 N.E.2d 256 (2003).
In Niezgoda, the defendant filed a pro se
postconviction petition alleging ineffective assistance
of counsel and attached his own affidavit and section
122-2 supporting affidavits from three other potential
witnesses. Niezgoda, 337 Ill.App.3d at 595, 271 Ill.Dec.
998, 786 N.E.2d 256. None of the affidavits were
notarized. Niezgoda, 337 Ill.App.3d at 595, 271 Ill.Dec.
998, 786 N.E.2d 256. The Second District, following

56a
Roth, found that affidavits filed pursuant to the Act
must be notarized to be valid. Niezgoda, 337 Ill.App.3d
at 597, 271 Ill.Dec. 998, 786 N.E.2d 256. The Niezgoda
court then found that “the affidavits the defendant
filed had no legal effect” because the affidavits were
not notarized or sworn before a person who had the
authority to administer oaths, and, as a result, the
trial court properly dismissed the petition. Niezgoda,
337 Ill.App.3d at 597, 271 Ill.Dec. 998, 786 N.E.2d 256
(citing People v. Johnson, 183 Ill.2d 176, 191, 233
Ill.Dec. 288, 700 N.E.2d 996 (1998)).
¶ 71 Here, similar to the defendant’s petition in
Niezgoda, Jenkins’s affidavit is not notarized and,
thus, not a valid affidavit on its face. However, in
Niezgoda, the defendant appealed from a second-stage
dismissal of his petition. To support a claim of failure
to present a witness, a defendant must tender a valid
affidavit from the individual who would have testified.
People v. Enis, 194 Ill.2d 361, 380, 252 Ill.Dec. 427, 743
N.E.2d 1 (2000) (citing People v. Johnson, 183 Ill.2d
176, 192, 233 Ill.Dec. 288, 700 N.E.2d 996 (1998), and
People v. Thompkins, 161 Ill.2d 148, 163, 204 Ill.Dec.
147, 641 N.E.2d 371 (1994)). Without a valid affidavit,
a reviewing court cannot determine whether the
proposed witness could have provided information or
testimony favorable to the defendant. Johnson, 183
Ill.2d at 192, 233 Ill.Dec. 288, 700 N.E.2d 996 (citing
People v. Guest, 166 Ill.2d 381, 402, 211 Ill.Dec. 490,
655 N.E.2d 873 (1995), and People v. Ashford, 121
Ill.2d 55, 77, 117 Ill.Dec. 171, 520 N.E.2d 332 (1988)).
After this case was initially filed, the Second District
decided People v. Carr, 407 Ill.App.3d 513, 348 Ill.Dec.
618,944 N.E.2d 859 (2011). In Carr, the defendant
appealed from the summary dismissal of his pro se
postconviction petition at the first stage. Carr, 407

57a
Ill.App.3d at 515, 348 Ill.Dec. 618, 944 N.E.2d 859.
Relying on Niezgoda, the Second District held that
because the defendant’s section 122-1 affidavit was not
notarized, it was not valid. Carr, 407 Ill. App.3d at
515,348 Ill.Dec. 618, 944 N.E.2d 859. The court also
declined to distinguish affidavits filed pursuant to
section 122-1 from the section 122-2 affidavit at issue
in Niezgoda because Niezgoda held that the
notarization requirement for affidavits applies to the
entire Act. Carr, 407 Ill.App.3d at 515, 348 Ill.Dec.
618, 944 N.E.2d 859. Accordingly, the court did not
consider the differing purposes of the two affidavit
requirements. The court found that because the
defendant’s section 122-1 affidavit was not notarized,
it was not valid and he was not entitled to relief. Carr,
407 Ill.App.3d at 516, 348 Ill.Dec. 618, 944 N.E.2d 859.
¶ 72 Recently, in People v. Henderson, 2011 IL App
(1st) 090923, 356 Ill.Dec. 311, 961 N.E.2d 407, Justice
Lavin authored an opinion analyzing the case based on
a defendant’s failure to obtain notarization of a
verifying affidavit where defendant was imprisoned
and there was no guarantee that a defendant would be
afforded the services of a notary public. Henderson,
2011 IL App (1st) 090923,126, 356 Ill.Dec. 311, 961
N.E.2d 407. The court in Henderson found that “the
purposes of the Act and section 122-2.1 would be
hindered by preventing petitions which are neither
frivolous nor patently without merit from proceeding
to the second stage due to the technicality at issue.”
Henderson, 2011 IL App (1st), 090923, ¶ 35, 356
Ill.Dec. 311, 961 N.E.2d 407. The Henderson court
further found that “[a]t the second stage, the State will
have the opportunity to object to the lack of
notarization” and that “appointed counsel can assist in
arranging for the notarization of the verification

58a
affidavit.” Henderson, 2011 IL App (1st), 090923, ¶ 35,
356 Ill.Dec. 311,961 N.E.2d 407. Henderson declined to
follow Carr as we do.
¶ 73 E. Whether Defendant’s Petition Is Frivolous
and Patently Without Merit
¶ 74 Third, defendant claims that the trial court
erred when it summarily dismissed his petition as
frivolous and patently without merit. Specifically,
defendant argues that he presented a non-frivolous
constitutional claim that his trial counsel was
ineffective for failing to fulfill his promise to the jury
to present Jenkins’s exculpatory testimony and that
appellate counsel was ineffective for failing to raise the
issue on appeal.
¶ 75 A defendant has a sixth amendment right to
effective assistance of counsel. U.S. Const., amends.
VI, XIV; Ill. Const. 1970, art. I, § 8. The Illinois
Supreme Court has held that, to determine whether a
defendant was denied his or her right to effective
assistance of counsel, an appellate court must apply
the two-prong test set forth in Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984), which the Illinois Supreme Court adopted
in People v. Alhanese, 102 Ill.2d 54, 79 Ill.Dec. 608, 464
N.E.2d 206(1984).
¶ 76 Under Strickland, a defendant must prove both
that: (1) his attorney’s actions or inactions constituted
error(s) so serious as to fall below an objective
standard of reasonableness “under prevailing
professional norms” (People v. Colon, 225 Ill.2d 125,
135, 310 Ill.Dec. 396, 866 N.E.2d 207 (2007); People v.
Evans, 209 Ill.2d 194, 220, 283 Ill.Dec. 651, 808 N.E.2d
939 (2004)); and (2) defense counsel’s deficient
performance prejudiced the defendant. People v.

59a
Hodges, 234 Ill.2d at 17, 332 Ill.Dec. 318, 912 N.E.2d
1204 (citing Strickland, 466 U.S. at 687-88, 104 S.Ct.
2052). “At the first stage of postconviction proceedings
under the Act, a petition alleging ineffective assistance
may not be summarily dismissed if (i) it is arguable
that counsel’s performance fell below an objective
standard of reasonableness and (ii) it is arguable that
the defendant was prejudiced.” Hodges, 234 Ill.2d at
17, 332 Ill.Dec. 318, 912 N.E.2d 1204. The failure to
satisfy either the deficiency prong or the prejudice
prong of the Strickland test precludes a finding of
ineffective assistance of counsel. Strickland, 466 U.S.
at 697, 104 S.Ct. 2052; People v. Patterson, 192 Ill.2d
93, 107, 249 Ill.Dec. 12, 735 N.E.2d 616 (2000).
¶ 77 Ineffective assistance of appellate counsel is
determined under the same standard as a claim of
ineffective assistance of trial counsel. People v.
Edwards, 195 Ill.2d 142, 163, 253 Ill.Dec. 678, 745
N.E.2d 1212 (2001) (citing People v. West, 187 Ill.2d
418, 435, 241 Ill.Dec. 535, 719 N.E.2d 664 (1999)).
Appellate counsel is not required to raise every
conceivable issue on appeal, and it is not incompetence
for counsel to refrain from raising issues that counsel
believes are without merit. Edwards, 195 Ill.2d at 16364, 253 Ill.Dec. 678,745 N.E.2d 1212 (citing People v.
Johnson, 154 Ill.2d 227, 236, 182 Ill.Dec. 1, 609 N.E.2d
304 (1993)). Accordingly, unless the underlying issue
has merit, there is no prejudice from appellate
counsel’s failure to raise an issue on appeal. Edwards,
195 Ill.2d at 164, 253 Ill.Dec. 678, 745 N.E.2d 1212
(citing People v. Childress, 191 Ill.2d 168, 175, 246
Ill.Dec. 352, 730 N.E.2d 32 (2000)).
¶ 78 Defendant claims that it is arguable that trial
counsel’s performance fell below an objective standard
of reasonableness because counsel promised the jury

60a
during his opening statement that Jenkins would
provide exculpatory testimony on defendant’s behalf,
and then failed to provide the promised testimony
during trial.
¶ 79 A defendant is entitled to reasonable, not perfect,
representation. People v. Fuller, 205 Ill.2d 308, 330,
275 Ill.Dec. 755, 793 N.E.2d 526 (2002) (citing People
v. Palmer, 162 Ill.2d 465, 476, 205 Ill.Dec. 506, 643
N.E.2d 797 (1994)); West, 187 Ill.2d at 432, 241 Ill.Dec.
535, 719 N.E.2d 664 (citing People v. Stewart, 104
Ill.2d 463, 492, 85 Ill.Dec. 422, 473 N.E.2d 1227
(1984)). Decisions concerning which witnesses to call
at trial and what evidence to present on defendant’s
behalf ultimately rest with trial counsel. People v.
Munson, 206 Ill.2d 104, 139-40, 276 Ill.Dec. 260, 794
N.E.2d 155 (2002); West, 187 Ill.2d at 432, 241 Ill.Dec.
535, 719 N.E.2d 664 (citing People v. Ramey, 152 Ill.2d
41, 53-55, 178 Ill.Dec. 19, 604 N.E.2d 275 (1992)). It is
well established that these types of decisions are
considered matters of trial strategy and are generally
immune from claims of ineffective assistance of
counsel. People v. Smith, 195 Ill.2d 179, 188, 253
Ill.Dec. 660, 745 N.E.2d 1194 (2000); West, 187 Ill.2d
at 432, 241 Ill.Dec. 535, 719 N.E.2d 664. “In
recognition of the variety of factors that go into any
determination of trial strategy, * * * claims of
ineffective assistance of counsel must be judged on a
circumstance-specific basis, viewed not in hindsight,
but from the time of counsel’s conduct, and with great
deference accorded counsel’s decisions on review.”
People v. Fuller, 205 Ill.2d 308, 330-31, 275 Ill.Dec.
755, 793 N.E.2d 526 (2002) (citing Roe v. Hares Ortega,
528 U.S. 470, 477, 120 S.Ct. 1029, 145 L.Ed.2d 985
(2000), and Strickland, 466 U.S. at 689, 104 S.Ct.
2052). Thus, “[mistakes in trial strategy or tactics or

61a
in judgment do not of themselves render the
representation incompetent.” (Internal quotation
marks omitted.) People v. Hillenbrand, 121 Ill.2d 537,
548, 118 Ill.Dec. 423, 521 N.E.2d 900 (1988).
¶ 80 A defense counsel’s failure to provide testimony
promised during opening statements is not ineffective
assistance of counsel per se. People v. Manning, 334
Ill.App.3d 882, 892, 268 Ill.Dec. 600, 778 N.E.2d 1222
(2002). We agree with defendant that counsel’s
assistance may be ineffective if he or she promises that
a particular witness will testify during opening
statements, but does not provide the promised
testimony during trial. See generally People v. Briones,
352 Ill.App.3d 913, 287 Ill.Dec. 909, 816 N.E.2d 1120
(2004). However, we have also recognized that
counsel’s decision to abandon a trial strategy during
trial may be reasonable under the circumstances and
that the decision not to provide promised testimony
may be warranted by unexpected events. People v.
Ligon, 365 Ill.App.3d 109, 120, 301 Ill.Dec. 753, 847
N.E.2d 763 (2006). In either case, a defendant must
overcome a strong presumption that the challenged
action or inaction of defense counsel may have been
the product of sound trial strategy. Evans, 186 Ill.2d
at 93, 237 Ill.Dec. 118, 708 N.E.2d 1158; People v.
Coleman, 183 Ill.2d 366, 397, 233 Ill.Dec. 789, 701
N.E.2d 1063 (1998); People v. Griffin, 178 Ill.2d 65, 7374, 227 Ill.Dec. 338, 687 N.E.2d 820 (1997); see also
People v. Gacy, 125 Ill.2d 117, 126, 125 Ill.Dec. 770,
530 N.E.2d 1340 (1988) (“The burden of * * *
overcoming the presumption that an attorney’s
decision is the product of ‘sound trial strategy’ rests
upon the defendant* * *.”).
¶ 81 A defendant may overcome the strong
presumption that defense counsel’s choice of strategy

62a
was “sound if counsel’s decision appears so irrational
and unreasonable that no reasonably effective defense
attorney, facing similar circumstances, would pursue
such a strategy.” (Emphasis in original.) People v.
King, 316 Ill.App.3d 901,916,250 Ill.Dec. 340, 738
N.E.2d 556 (2000) (citing People v. Faulkner, 292
Ill.App.3d 391, 394, 226 Ill.Dec. 749, 686 N.E.2d 379
(1997)). “[Sound trial strategy] embraces the use of
established rules of evidence and procedure to avoid,
when possible, the admission of incriminating
statements, harmful opinions, and prejudicial facts.”
People v. Moore, 279 Ill.App.3d 152, 159, 215 Ill.Dec.
479, 663 N.E.2d 490 (1996).
¶ 82 Here, we cannot say that defense counsel’s
decision not to call Jenkins as a witness was outside
the realm of sound trial strategy. The record shows
that defense counsel contemplated calling Jenkins as
a witness. However, after interviewing him, defense
counsel determined that Jenkins’s testimony would
not be in defendant’s “best interest.” Defense counsel
then informed defendant and the trial judge of his
decision not to call Jenkins as a witness. The trial
court discussed the matter with defendant and his
counsel in open court and defendant informed the
court that he agreed with his counsel’s decision. Based
on the record, defense counsel’s decision to not call
Jenkins as a witness appears to be the product of
sound trial strategy, a strategy that the defendant
agreed with. See People v. Flores, 128 Ill.2d 66, 106,
131 Ill.Dec. 106, 538 N.E.2d 481 (1989) (“defense
counsel need not call a witness if he reasonably
believes that under the circumstances the individual’s
testimony is unreliable or would likely have been
harmful to the defendant”).

63a
¶ 83 Considering Jenkins’ affidavit in addition to the
record, we still conclude that defendant did not
overcome the strong presumption that defense
counsel’s decision was the product of sound trial
strategy at the time that he interviewed Jenkins.
¶ 84 The record also shows that two of the State’s
witnesses, Morgan and Parker, testified that there
was animosity between defendant and Jenkins and the
victim, which supported the defense counsel’s selfdefense theory. Specifically, Morgan testified that the
victim was in a gang rival to defendant’s and Jenkins’s
gang. He further testified that the victim had a
confrontation with defendant and Jenkins two weeks
prior to the shooting. Parker testified that the victim
had a “beef’ with Jenkins. Both Morgan and Parker
testified that the victim pursued defendant and
Jenkins as they were walking into the gangway.
Jenkins’s purported testimony now, as stated in his
affidavit, would have not supported defendant’s theory
that he acted in self-defense. According to Jenkins’s
affidavit, Jenkins would have testified that defendant
had nothing to do with the shooting and that he alone
shot the victim. This was not the theory that was
presented by the defense at trial.
¶ 85 Moreover, Jenkins was a codefendant and his
testimony may have been harmful to defendant. The
chance of such harm is even more likely considering
that defendant successfully moved for severed trials on
the grounds that Jenkins had made statements which,
if introduced at trial, would be prejudicial to
defendant. In People v. Ashford, 121 Ill.2d 55, 75, 117
Ill.Dec. 171, 520 N.E.2d 332 (1988), our supreme court
rejected the defendant’s postconviction petition claim
that his counsel was ineffective for not subpoenaing

64a
his codefendant to testify. The supreme court found
that subpoenaing his codefendant
“would surely have been an incomprehensible, if
not utterly egregious, trial tactic * * *. Having
successfully moved for severed trials on the ground
that [his codefendant] had made statements which,
if introduced at trial, would be prejudicial to him,
we cannot understand how the defendant can now
fault counsel for failing to subpoena [his
codefendant].” Ashford, 121 Ill.2d at 75, 117 Ill.Dec.
171, 520 N.E.2d 332.
¶ 86 In his motion for severance, defendant alleged
that Jenkins “has made written and/or oral statements
implicating [him].” He further alleged that he believed
that Jenkins’s defense “is in conflict and antagonistic
toward [him] and he cannot obtain a fair and impartial
trial because of the prejudice created by the
inconsistent, conflicting, and antagonistic defenses.”
¶ 87 Accordingly, we cannot say that defense counsel’s
decision not to call Jenkins was so irrational or
unreasonable that his performance fell below an
objective standard of reasonableness when, before
trial, defendant sought to sever Jenkins’s trial from his
own, and when, during trial, defense counsel
determined after interviewing Jenkins that his
testimony would not be in defendant’s best interest.
¶ 88 We find the case at bar distinguishable from the
cases defendant cites where defense counsel’s
performance was deficient for failing to fulfill his
promise to the jury to present exculpatory testimony
from witnesses. Defendant cites People v. Bryant, 391
Ill.App.3d 228, 330 Ill.Dec. 49, 907 N.E.2d 862 (2009),
and People v. Briones, 352 Ill.App.3d 913, 287 Ill.Dec.
909, 816 N.E.2d 1120 (2004).

65a
¶ 89 In Bryant, the Fifth District found that defense
counsel was ineffective in the defendants’ joint murder
case for failing to call any witnesses, who were
available to testify at trial, in support of the defense
theory proffered in opening statements to the jury that
the murder was committed by others. Bryant, 391
Ill.App.3d at 229, 330 Ill.Dec. 49, 907 N.E.2d 862. On
review, the Bryant court found that defense counsel’s
performance was deficient because trial counsel
attempted to present his defense entirely through
cross-examination of the State’s witnesses, but his
questions were repeatedly and successfully challenged
by “beyond the scope” objections from the State.
Bryant, 391 Ill.App.3d at 239, 330 Ill.Dec. 49, 907
N.E.2d 862. The court found that, although counsel’s
decision not to call any witnesses was a matter of trial
strategy, said strategy was not reasonable, and the
resulting prejudice was not harmless, as it “appears
that counsel concluded that rather than support the
defense theory with evidence that the jury might
reject, it was better to not support the theory at all.”
Bryant, 391 Ill.App.3d at 241, 330 Ill.Dec. 49, 907
N.E.2d 862.
¶ 90 In the case at bar, there is no indication in the
record, and defendant does not argue, that defense
counsel entirely failed to support his theory of selfdefense similar to the defense counsel in Bryant.
Rather, our examination of the record in this case
shows that defense counsel’s performance was not
deficient because counsel exhibited an understanding
of the fundamental rules of criminal procedure,
subjected the State’s witnesses to meaningful
adversarial testing, and presented a trial strategy
without flawed legal arguments. People v. Schlager,

66a
247 Ill.App.3d 921, 932, 187 Ill.Dec. 554, 617 N.E.2d
1275 (1993).
¶ 91 In Briones, the Fifth District of the Appellate
Court found that defense counsel’s performance was
deficient after counsel reneged on a promise to the jury
during opening statements that the defendant would
testify. Briones, 352 Ill.App.3d at 919, 287 Ill.Dec. 909,
816 N.E.2d 1120. During trial the defendant informed
the trial court that he decided, after speaking to his
trial counsel, that he would not testify on his own
behalf. Briones, 352 Ill.App.3d at 916, 287 Ill.Dec. 909,
816 N.E.2d 1120. On appeal, defendant claimed that
his defense counsel’s decision for him not to testify was
unsound trial strategy and the appellate court agreed.
Briones, 352 Ill.App.3d at 918, 287 Ill.Dec. 909, 816
N.E.2d 1120.
¶ 92 In deciding whether defense counsel’s decision
constituted deficient performance, the court
recognized that it was trial counsel’s “responsibility to
evidence in the record that [her performance] was not
deficient, that the determination [that defendant
would not testify] was a result of the defendant’s
fickleness or of counsel’s sound trial strategy due to
unexpected events.” Briones, 352 Ill.App.3d at 919,
287 Ill.Dec. 909, 816 N.E.2d 1120. In its review, the
court found that defense counsel “failed to show in the
record that the defendant inexplicably changed his
decision to testify or that, because of unexpected
events, sound trial strategy required her to break her
promise that the defendant would testify.” Briones,
352 Ill.App.3d at 919, 287 Ill.Dec. 909, 816 N.E.2d
1120. As a result, the appellate court declined to
presume that defense counsel’s decision not to present
the defendant’s testimony, after promising to do so in
opening statements, was the result of sound trial

67a
strategy and thus concluded that counsel’s
performance was deficient. Briones, 352 Ill.App.3d at
919, 287 Ill.Dec. 909, 816 N.E.2d 1120. See also People
v. Tate, 305 Ill.App.3d 607, 612, 238 Ill.Dec. 722, 712
N.E.2d 826 (1999) (unable to determine “as a matter of
law” whether defense counsel’s decision to not call
certain witnesses was a “professionally reasonable
tactical decision” because the record did not reflect
counsel’s reasoning for the decision).
¶ 93 Here, unlike Briones and Tate, the record shows
that defense counsel had a reason for not calling
Jenkins to testify—he reasonably believed that, after
interviewing Jenkins, the testimony Jenkins would
provide would not be in defendant’s best interest.
Defense counsel interviewed Jenkins before
presenting the testimony and, as a result of that
interview, determined that his testimony would not be
in the best interest of the defendant. Defense counsel
then informed the trial court and defendant of his
decision, and defendant informed the court that he
agreed with his counsel’s decision.
¶ 94 Defendant also argues that defense counsel’s
“failure to present Jenkins’s exculpatory testimony to
support defendant’s otherwise uncorroborated defense
amounts to ineffective representation.” Defendant
cites People v. King, 316 Ill.App.3d 901,250 Ill.Dec.
340, 738 N.E.2d 556 (2000), but we find that case also
distinguishable to the case at bar.
¶ 95 In King, the defendant was convicted of
aggravated criminal sexual assault and aggravated
kidnaping for the abduction and rape of a 17-year-old
passenger on the defendant’s school bus route. King,
316 Ill.App.3d at 903-04, 250 Ill.Dec. 340, 738 N.E.2d
556. Defendant maintained that he did not rape the

68a
passenger and was never alone with her on the bus.
Defendant provided his defense counsel with the name
of an alibi witness who worked as a bus attendant on
defendant’s bus and who was working on the bus on
the day of the alleged rape. King, 316 Ill.App.3d at 904,
250 Ill.Dec. 340, 738 N.E.2d 556. The defendant
alleged that his trial counsel never interviewed the bus
attendant in preparation for trial and never called her
as a witness, although she was present at court and
available to testify on the trial date. King, 316
Ill.App.3d at 904, 250 Ill.Dec. 340, 738 N.E.2d 556. The
bus attendant’s affidavit stated that she was on the
bus the entire time the students were riding home and
that the 17- year-old passenger was never alone on the
bus with the defendant. King, 316 Ill.App.3d at 904,
250 Ill.Dec. 340, 738 N.E.2d 556.
¶ 96 This court held that defense counsel’s
performance was deficient because defense counsel
was aware of the alibi witness but failed to interview
the witness at any time before or during trial and
failed to provide an explanation for failing to call or
even interview the exculpatory witness. King, 316
Ill.App.3d at 916, 250 Ill.Dec. 340, 738 N.E.2d 556. We
could not conceive of any sound trial strategy for
failing to do so. King, 316 Ill.App.3d at 916, 250 Ill.Dec.
340, 738 N.E.2d 556.
¶ 97 Here, on the other hand, defendant does not claim
in his postconviction petition that defense counsel
failed to interview Jenkins before trial commenced,
nor did Jenkins state in his unnotarized affidavit that
defense counsel failed to interview him prior to trial.
There is no dispute that defense counsel did interview
Jenkins before presenting his defense. As a result of
that interview, defense counsel presented defendant
and the trial judge with a reason for deciding not to

69a
call Jenkins as a witness—namely, that after
interviewing the witness during a recess, he
determined that calling Jenkins was not in
defendant’s best interest.
¶ 98 Defendant further argues that defense counsel’s
performance was deficient for failing to interview
Jenkins, a known witness, before opening statements.
However, we do not find any factual support for this
argument. Defendant does not allege in his
postconviction petition that his defense counsel did not
interview Jenkins before opening statements. Jenkins,
in his unnotarized affidavit, also did not allege that he
was not interviewed before opening statements. We
also do not find any indication in the record that
Jenkins was not interviewed before opening
statements. Normally witnesses are interviewed well
in advance of trial. It is also possible for a witness to
change his testimony from the time he or she was first
interviewed to the time he or she is called as a witness.
However, a codefendant in a criminal trial may not
agree to an interview until his trial has been
concluded. We do not know, nor does the petition state,
when Jenkins was first interviewed or what attempts
were made to interview Jenkins prior to trial.
¶ 99 The record shows that defendant’s decision not to
call Jenkins as a witness, even after promising to call
him as a witness during opening statements, appears
to be the product of sound trial strategy. Considering
Jenkins’s affidavit in addition to the record, we cannot
say that defendant overcame the presumption that his
defense counsel’s decision not to call Jenkins was the
product of reasonable trial strategy. Since we are
unable to conclude that defense counsel’s performance
arguably fell below objective standards, defendant’s
claim of ineffective assistance of trial counsel and

70a
appellate counsel must fail. Patterson, 192 Ill.2d at
107, 249 Ill.Dec. 12, 735 N.E.2d 616. Accordingly, we
cannot say that the trial court’s summary dismissal of
defendant’s postconviction petition as frivolous and
patently without merit was not proper.
¶100 III. CONCLUSION
¶ 101 We affirm the trial court’s summary dismissal of
defendant’s pro se postconviction petition as frivolous
and patently without merit.
¶ 102 Affirmed.
Justice PALMER 3 concurred in the judgment and
opinion.
Justice GARCIA specially concurred, with opinion.
¶ 103 JUSTICE GARCIA, specially concurring:
¶ 104 I do not subscribe to the majority’s rejection of
People v. Carr, 407 Ill.App.3d 513, 348 Ill.Dec. 618, 944
N.E.2d 859 (2011), which held that an unsigned
affidavit is not valid, for being at odds with this court’s
decision in People v. Henderson, 2011 IL App (1st)
090923, 356 Ill.Dec. 311, 961 N.E.2d 407. Supra ¶ 72.
Specifically, I disagree with the implicit suggestion by
the majority that because a first-stage postconviction
petition should not necessarily be dismissed for lack of
supporting documentation based on an unsworn
Justice Robert Cahill originally sat on the panel of this
appeal and participated in its disposition. Justice Cahill
passed away on December 4, 2011. Therefore, Justice
Palmer will serve in his stead and has read the briefs,
record and the decision, which is the subject of the petition
for rehearing.
3

71a
“affidavit” from a postconviction defendant under
Henderson, the same result should obtain when the
unsworn “affidavit” purports to be from a codefendant
on behalf of a postconviction defendant. I agree with
the observation in Henderson, “We need not address
the result in Wilborn, as that case did not present an
issue identical to the one before us.” Henderson, 2011
IL App (1st) 090923, ¶ 36, 356 Ill.Dec. 311, 961 N.E.2d
407.
¶ 105 In this case, defendant offers the excuse that
Jenkins’s efforts to notarize his statement were
rebuffed by the Illinois Department of Corrections. It
is fair to say that the defendant’s assertion cannot be
based on his own knowledge. There may be another
equally plausible reason for Jenkins’s statement not
being notarized. In any event, I am not persuaded that
an unsigned “affidavit” from a postconviction
petitioner and an unsigned “affidavit” from a
purported witness should be treated alike.
¶ 106 However, I agree with the majority’s conclusion
that upon de novo review the postconviction petition,
with its supporting documentation, meets the legal
standard of frivolous and patently without merit to
warrant dismissal at the first stage, which after all is
the true holding of this case and is the same result we
reached as to the postconviction petition we reviewed
in Henderson.

72a
__________
APPENDIX D
__________

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
August 4, 2020
Before
DIANE S. SYKES, Chief Judge
WILLIAM J. BAUER, Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
No. 18-1507
JOSEPH WILBORN,
Petitioner-Appellant,
v.
ALEX JONES, Acting
Warden,
Respondent-Appellee.

Appeal from the United
States District Court for
the Northern District of
Illinois, Eastern Division.
No. 14 C 05469
John Robert Blakey,
Judge.

ORDER
On consideration of petitioner-appellant’s petition
for panel rehearing and petition for rehearing en banc
filed on July 20, 2020, in connection with the above-

73a
referenced case, no judge in active service has
requested a vote on the petition for rehearing en banc, *
and all of the judges on the original panel have voted
to deny the petition for panel rehearing. It is,
therefore, ORDERED that the petition for panel
rehearing and the petition for rehearing en banc are
DENIED.

*Circuit

Judge Joel M. Flaum did not participate in the
consideration of this petition for rehearing.

74a
__________
APPENDIX E
__________
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
FINAL JUDGMENT
July 6, 2020
Before:

DIANE S. SYKES, Chief Circuit Judge
WILLIAM J. BAUER, Circuit Judge
FRANK H. EASTERBROOK, Circuit
Judge

No. 18-1507

JOSEPH WILBORN,
Petitioner – Appellant
v.

ALEX JONES, Acting Warden
Respondent – Appellee
Originating Case Information:
District Court No: 1:14-cv-05469
Northern District of Illinois, Eastern Division
District Judge John Robert Blakey
The judgment of the District Court is AFFIRMED,
with costs, in accordance with the decision of this
court entered on this date.

75a
__________
APPENDIX F
__________

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
October 19, 2018
Before
MICHAEL Y. SCUDDER, Circuit Judge
No. 18-1507
JOSEPH WILBORN,
Appeal from the United
Petitioner-Appellant, States District Court for
the Northern District of
v.
Illinois, Eastern Division.
MICHAEL MELVIN,
Respondent-Appellee. No. 14CV5469
John Robert Blakey,
Judge.
ORDER
Joseph Wilborn has filed a notice of appeal from the
denial of his habeas corpus petition under 28 U.S.C.
§ 2254 and an application for a certificate of

76a
appealability. This court has reviewed the final order
of the district court and the record on appeal.
We find that Wilborn has made a substantial
showing of the denial of a constitutional right, see 28
U.S.C. § 2253(c)(2), specifically as to whether trial
counsel performed deficiently and caused cognizable
prejudice when he told the jury in his opening
statement that Wilborn’s codefendant would testify
but then declined to call the codefendant as a witness.
Cf. Hampton v. Leibach, 347 F.3d 219, 257 (7th Cir.
2003) (“[W]hen the failure to present the promised
testimony cannot be chalked up to unforeseeable
events, the attorney’s broken promise may be
unreasonable, for little is more damaging than to fail
to produce important evidence that had been promised
in an opening.”) (cleaned up).
Accordingly, the request for a certificate of
appealability is GRANTED. On the court’s own
motion, we appoint counsel for Wilborn. A separate
order naming counsel and setting a briefing schedule
will follow.

